<html>
<title> - DISCUSSION DRAFT: BROWNFIELDS REAUTHORIZATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




             DISCUSSION DRAFT: BROWNFIELDS REAUTHORIZATION

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 4, 2017

                               __________

                           Serial No. 115-23





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-874                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



























                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, CaliforniaL RUIZ, 
MARKWAYNE MULLIN, Oklahoma               California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

<RAU>
                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
TIM MURPHY, Pennsylvania             SCOTT H. PETERS, California
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
GREGG HARPER, Mississippi            DIANA DeGETTE, Colorado
PETE OLSON, Texas                    JERRY McNERNEY, California
BILL JOHNSON, Ohio                   TONY CARDENAS, California
BILL FLORES, Texas                   DEBBIE DINGELL, Michigan
RICHARD HUDSON, North Carolina       DORIS O. MATSUI, California
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
EARL L. ``BUDDY'' CARTER, Georgia
GREG WALDEN, Oregon (ex officio)
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................     9

                               Witnesses

J. Christian Bollwage, Mayor of the City of Elizabeth, New 
  Jersey, on Behalf of the U.S. Conference of Mayors.............    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................   108
Salvatore J. Panto, Jr., Mayor of the City of Easton, 
  Pennsylvania, on Behalf of the National League of Cities.......    33
    Prepared statement...........................................    35
    Answers to submitted questions...............................   111
Parris N. Glendening, Former Governor of Maryland and the 
  President of the Smart Growth American Leadership Institute....    45
    Prepared statement...........................................    47
    Answers to submitted questions...............................   114
Robert Martineau, Commissioner of the Tennessee Department of 
  Environment and Conservation, on Behalf of the Environmental 
  Council of the States..........................................    53
    Prepared statement...........................................    55
    Answers to submitted questions...............................   117
J. Meade R. Anderson, Brownfields Program Manager, Virginia 
  Department of Environmental Quality, on Behalf of the 
  Association of State and Territorial Solid Waste Management 
  Officials, ASTSWMO.............................................    62
    Prepared statement...........................................    64
    Answers to submitted questions...............................   120

                           Submitted Material

ASTSWMO paper....................................................   103

 
             DISCUSSION DRAFT: BROWNFIELDS REAUTHORIZATION

                              ----------                              


                         TUESDAY, APRIL 4, 2017

                  House of Representatives,
                       Subcommittee on Environment,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Present: Representatives Shimkus, McKinley, Blackburn, 
Harper, Olson, Johnson, Flores, Hudson, Cramer, Walberg, 
Carter, Walden (ex officio), Tonko, Ruiz, Peters, Green, 
McNerney, Cardenas, Dingell, Matsui, and Pallone (ex officio).
    Staff present: Grace Appelbe, Legislative Clerk; Ray Baum, 
Staff Director; Zachary Dareshori, Staff Assistant; Paul 
Edattel, Chief Counsel, Health; Wyatt Ellertson, Research 
Associate, Energy/Environment; Adam Fromm, Director of Outreach 
and Coalitions; Giulia Giannangeli, Legislative Clerk, Digital 
Commerce and Consumer Protection/Environment; Tom 
Hassenboehler, Chief Counsel, Energy/Environment; A.T. 
Johnston, Senior Policy Advisor/Professional Staff, Energy/
Environment; Alex Miller, Video Production Aide and Press 
Assistant; Tina Richards, Counsel, Environment; Chris Sarley, 
Policy Coordinator, Environment; Dan Schneider, Press 
Secretary; Peter Spencer, Professional Staff Member, Energy; 
Hamlin Wade, Special Advisor, External Affairs; Andy Zach, 
Professional Staff Member, Environment; Jeff Carroll, Minority 
Staff Director; Jacqueline Cohen, Minority Senior Counsel; 
David Cwiertney, Minority Energy/Environment Fellow; Jean 
Fruci, Minority Energy and Environment Policy Advisor; Rick 
Kessler, Minority Senior Advisor and Staff Director, Energy and 
Environment; Alexander Ratner, Minority Policy Analyst; Matt 
Schumacher, Minority Press Assistant; Tuley Wright, Minority 
Energy and Environment Policy Advisor; and C. J. Young, 
Minority Press Secretary.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus [presiding]. The Subcommittee on Environment 
will now come to order.
    The Chair now recognizes himself for 5 minutes for an 
opening statement.
    I would like to welcome everyone as we roll up our sleeves 
to continue to work to reauthorize and improve EPA's 
Brownfields Program. The EPA Brownfields Program is vital to 
states and local communities, as they try to address 
contaminated industrial and commercial properties and return 
them to productive use.
    Cleaning up these sites is great for the economy because 
brownfields grants can be directly leveraged into jobs, 
additional redevelopment funds, and increase residential and 
commercial property values. At this subcommittee's first 
hearing earlier this year, we also heard how important 
brownfields funding and cleanup is to promoting investment in 
new infrastructure and to better utilize our existing 
infrastructure.
    Last year the subcommittee held a hearing to look at what 
works in the Brownfields Program and what we could do to 
improve it. I know that our friends on the Transportation and 
Infrastructure Committee have held similar hearings, and I 
think we can all agree that the Brownfields Program is 
essential to protect.
    I think we can also agree that a primary goal is to fully 
fund the program and get as many cleanups done and get as many 
people involved in the cleanup process as we can. To that end, 
there were some legislative fixes identified in previous 
hearings that would further this goal and make the program even 
better, which brings us to this morning.
    We are looking at a discussion draft that incorporates the 
fixes suggested by our witnesses. In fact, I see a couple of 
familiar faces from our hearing last year. Welcome back, Mr. 
Anderson and Mayor Bollwage.
    The discussion draft contains improvements to the 
Brownfields Program such as creation of multipurpose grants 
that can be used for multiple purposes, including brownfields 
assessment and cleanup, and which will provide flexibility to 
communities trying to clean up multiple brownfields sites 
within an area in the community
    The discussion draft also provides liability relief to 
municipalities who involuntarily acquire a brownfields property 
by virtue of its function as a sovereign, which will allow 
local units of government to address contamination on the 
property they acquire through tax delinquency, bankruptcy, and 
abandonment.
    The legislation also increases the limit for mediation 
grants from $200,000 to $500,000 which, as we heard from 
witnesses, will make it easier for brownfields sites to get 
cleaned up. The bill provides for a limited amount of the grant 
funds to be used for administrative costs, which will allow 
small and rural communities to be able to receive and utilize 
grant funds.
    We have confidence that these provisions and the others in 
the discussion draft will make the Brownfields Program even 
more successful, and we hope that our witnesses today will tell 
us what they like about the bill and, also, tell us what 
improvements we should make.
    If there are additional legislative provisions that would 
help further the goal of getting more sites cleaned up, we hope 
that we can work with the stakeholders here today and with our 
colleagues to think creatively about how to incorporate such 
changes into the discussion draft going forward, including 
looking at Good Samaritans, people who volunteer their services 
or capital to get brownfields sites cleaned up and ways to 
encourage them to participate in the cleanup process.
    I would like to welcome our panel of state and local 
brownfields experts who will share with us firsthand knowledge 
and experience with the Brownfields Programs. I hope that 
together we can take a closer look at the discussion draft and 
figure out what else we can do to improve the Brownfields 
Program and the brownfields law.
    I have a minute-and-a-half left. Does anybody wish for some 
time? The Chair recognizes the gentlelady from Tennessee, Mrs. 
Blackburn.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    The subcommittee will now come to order. The Chair 
recognizes himself for 5 minutes.
    I would like to welcome everyone as we roll up our sleeves 
and continue our work to reauthorize and improve the EPA's 
Brownfields Program.
    The EPA Brownfields Program is vital to states and local 
communities as they try to address contaminated industrial and 
commercial properties and return them to productive use. 
Cleaning up these sites is great for the economy because 
brownfields grants can be directly leveraged into jobs, 
additional redevelopment funds, and increased residential and 
commercial property values. At this subcommittee's first 
hearing earlier this year we also heard how important 
brownfields funding and cleanup is to promoting investment in 
new infrastructure and to better utilizing our existing 
infrastructure.
    Last year the subcommittee held a hearing to look at what 
works in the Brownfields Program and what we could do to 
improve it. I know that our friends on the Transportation and 
Infrastructure Committee have held similar hearings and I think 
we can all agree that the Brownfields Program is essential to 
protect. I think we can also agree that a primary goal is to 
fully fund the program and get as many cleanups done, and get 
as many people involved in the cleanup process, as we can. To 
that end, there were some legislative fixes identified in 
previous hearings that would further this goal and make the 
program even better.
    Which brings us to this morning. We are looking at a 
Discussion Draft that incorporates the fixes suggested by our 
witnesses--in fact, I see a couple familiar faces from our 
hearing last year--welcome back Mr. Anderson and Mayor 
Bollwage.
    The Discussion Draft contains improvements to the 
Brownfields Program such as the creation of multipurpose grants 
that can be used for multiple purposes--including brownfields 
assessment and cleanup--and which will provide flexibility to 
communities trying to clean up multiple brownfields sites 
within an area in the community. The Discussion Draft also 
provides liability relief to municipalities who involuntarily 
acquire brownfields property by virtue of its function as a 
sovereign, which will allow local units of government to 
address contamination on property they acquire through tax 
delinquency, bankruptcy, or abandonment. The legislation also 
increases the limit for remediation grants from $200,000 to 
$500,000--which, as we heard from many witnesses, will make it 
easier for brownfields sites to get cleaned up. The bill 
provides for a limited amount of the grant funds to be used for 
administrative costs, which will allow small and rural 
communities to be able to receive and utilize grant funds.
    We have confidence that these provisions and the others in 
the Discussion Draft will make the Brownfields Program even 
more successful and we hope that our witnesses today will tell 
us what they like about the bill and also tell us what 
improvements we should make. If there are additional 
legislative provisions that would help further the goal of 
getting more sites cleaned up--we hope that we can work with 
the stakeholders here today and with our colleagues to think 
creatively about how to incorporate such changes into the 
Discussion Draft going forward. Including looking at Good 
Samaritans--people who volunteer their services or capital to 
get brownfields sites cleaned up--and ways to encourage them to 
participate in the cleanup process.
    I would like to welcome our panel of state and local 
brownfields experts who will share with us their first-hand 
knowledge and experience with the Brownfields Program. I hope 
that together we can take a closer look at the Discussion Draft 
and figure out what else we can do to improve the Brownfields 
Program and the Brownfields Law.
    The Chair now recognizes the Ranking Member Mr. Tonko for 5 
minutes for his opening statement.

    Mrs. Blackburn. Thank you, Mr. Chairman, and thank you for 
the hearing.
    And I welcome our witnesses.
    The chairman has talked about the need for the Brownfields 
Program, talked about the success of the Brownfields Program. 
In Tennessee we have had the Voluntary Cleanup, Oversight, and 
Assistance Program since 2001. This has been successful.
    We look forward to making certain that communities have the 
tools that they need and that there is the proper participation 
between the EPA, the grants that are given, and also the 
communities that are trying to clear up these distressed 
properties. The negative effect that they have on real estate 
values in the area we all know. We know those stories.
    So, Mr. Chairman, I thank you for the hearing. I welcome 
the witnesses. I yield back my time.
    Mr. Shimkus. The gentlelady yields back her time.
    Anyone else seeking the final 40 seconds? Seeing none, the 
Chair now recognizes the ranking member of the subcommittee, 
Mr. Tonko for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Chair Shimkus, for holding this 
hearing on the committee's discussion draft to reauthorize 
EPA's Brownfields Program.
    I thank our witnesses for being here to provide feedback on 
this draft, including a few familiar faces, including Mayor 
Bollwage--thank you for joining us again--and Mr. Anderson, who 
both testified at our brownfields hearing last year, which I 
believe was very productive. I am glad they can join us again 
as we begin to look at legislative text.
    There is no denying how successful EPA's Brownfields 
Program has been. Over 44,000 acres of idle land have been made 
ready for productive use. Over 106,000 jobs and $23.3 billion 
have been leveraged.
    Cleaning up brownfields leads to nearby residential 
property value increases of anywhere from 5 to 11.5 percent. 
One dollar of the EPA's brownfields funding leverages between 
$17 and $18 in other public and private funding sources, and 
redeveloping a brownfield, instead of a greenfield, has 
significant environmental benefits.
    We are dealing with a program that has produced results 
since 2002. Brownfield cleanup is critical for environmental 
revitalization and economic redevelopment efforts. There is a 
reason why so many mayors support this program. It is about 
making a community healthier and safer while returning an 
underutilized property to the tax rolls. If cities and towns 
are unable to expand, want to preserve greenspace, or breathe 
new life back to an old downtown or waterfront area, there is 
no choice but to reuse these properties. It is fundamental to 
sustainable development.
    When the Brownsfield Act was passed in 2002, there were an 
estimated 450,000 brownfields sites. According to EPA, more 
than 25,000 properties have been assessed. That is a great 
start. These assessments and remediations have made huge 
improvements in communities all across our country. The EPA has 
already made a number of improvements to the program, including 
introducing areawide planning grants based on New York State's 
Brownfields Opportunity Area, or BOA program.
    But, with so many properties remaining, it is clear we 
still have much more work to do. Today we will discuss changes 
to the law that give communities added flexibility and 
resources to continue to build upon the success of this 
program.
    Regulars at this subcommittee will know that we often 
disagree on legislation, but this discussion draft illustrates 
just how much consensus there is around what steps we need to 
take to improve the program, which has historically enjoyed 
strong bipartisan support.
    More flexibility in grants, increasing the size of 
individual grants, and expanded eligibility for nonprofits and 
sites publicly owned prior to 2002 are just a few of the 
improvements before us today. This draft would increase the cap 
on individual projects, currently at $200,000. Many remaining 
sites are complex and will require more funding to remediate 
properly.
    Today's limit for assessment and cleanup grants is not 
enough in many cases. The language before us would also give 
grant recipients additional flexibility. Multipurpose grants 
allow for assessment, cleanup, and planning on a community-wide 
basis. It also would make it easier for nonprofit stakeholders 
to get involved. It would allow a small portion of grants to be 
used to cover administrative costs. These are great and 
necessary improvements to the law.
    However, this draft does not answer the questions on 
funding levels. The program administers two types of grants: 
direct financial assistance for the assessment and cleanup of 
properties and assistance to states to aid them in carrying out 
their own programs, both of which have been underfunded for 
years. I believe we need to reauthorize both accounts at higher 
levels.
    I must also mention the President's proposed fiscal year 
2018 budget cuts to EPA. It should become clear this morning 
that these cuts would hurt local and state governments. These 
governments are trying to do the right thing, clean up their 
communities and get land back into productive use, but it will 
be difficult to do without EPA's support. Rather than cutting 
EPA's budget and staff, we should be providing more federal 
support, dollars as well as capacity-building and technical 
assistance.
    Ultimately, this program has proven its worth many times 
over, and we should think very carefully before reducing it. 
Due to the success of this program, communities are beginning 
to realize that we can turn a liability into an opportunity. I 
see it in my own district, where many mill towns once thrived. 
All along the Mohawk and Hudson Rivers, factories manufactured 
items like carpets, collars, and leather products. Sadly, many 
of those manufacturers are gone, but the baggage of 
contaminated or the perception of contaminated land remains.
    Local governments want to turn those underused factories 
and waterfront properties into parks, restaurants, clean energy 
producers, or the next great regional employer. We can help 
them do that.
    I look forward to hearing from our witnesses today, and I 
thank Chair Shimkus for providing us with a good starting point 
to begin our discussion.
    With that, I yield back my time.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the chairman of the full 
committee, Mr. Walden, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank the gentleman for the hearing.
    I want to welcome our witnesses for being here. We 
appreciate your input and counsel.
    Nearly every Oregon city and county, whether rural or 
urban, has vacant underuse of potentially contaminated 
properties that, if left unchecked, can be a nuisance on the 
community. If these sites are cleaned up, however, they could 
have meaningful economic impact on jobs, wages, and additional 
property tax revenue for our small towns.
    The EPA Brownfields Program has changed the way we perceive 
and manage contaminated properties. Grants and assistance 
provided through the program empower states, communities, and 
other economic redevelopment stakeholders to work together to 
assess, remediate, and substantially reuse these properties.
    Recently, this committee and our colleagues on the 
Transportation and Infrastructure Committee have begun 
reexamining this important program. The discussion draft before 
us is a first step to addressing some of the issues we have 
heard about in our previous hearing in this committee. The bill 
we review this morning makes needed improvements to the 
Brownfields Program to ensure that, working together, we can 
continue to promote infrastructure and economic development and 
return contaminated property to productive use.
    Now in my home state of Oregon we have had a very active 
Brownfields Program and we have seen some great successes, 
including in my district where, last year in The Dalles, Google 
broke ground on an expansion to their data center on 26 acres 
of former mill land that was cleaned up under this program, a 
$600 million investment expected to create 50 new jobs.
    In my home town of Hood River, the Port of Hood River just 
finished a brownfields cleanup of another former mill site, 
opening up over 12 acres of land for future business 
opportunities in that area.
    Oregon is also on the leading edge of brownfields cleanup. 
In fact, in 2015, the Oregon State Legislature took steps to 
encourage local governments to acquire and redevelop 
contaminated properties through the creation of the Land Bank 
Authorities. These land banks would purchase or acquire 
brownfields properties, promote development in ways that meet 
the local community's particular needs.
    The Oregon Department of Environmental Quality supports 
fully funding the Brownfields Program and enthusiastically 
supports many of the revisions that we are making in this 
discussion draft.
    We hope that the witnesses here today will let us know if 
we are on the right track with the discussion draft and, if 
necessary, that they will help us identify other ways to 
improve the Brownfields Program and the brownfields law.
    Our new EPA Administrator has stressed the importance of 
getting contaminated sites cleaned up, and the Brownfields 
Program is a vital component of this process. Therefore, we 
remain committed to working with our colleagues across the 
aisle and on the Transportation and Infrastructure Committee to 
ensure that the Brownfields Program will continue to encourage 
EPA, states, and local governments to work together to 
redevelop brownfields properties and create new jobs, leverage 
private investment, and provide for economic development.
    I am thankful the witnesses are here today. We appreciate 
the input and your thoughts on this discussion draft as we work 
to move this legislation along.
    With that, Mr. Chair, I yield back the balance of my time, 
or to any other committee members, if they want it.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Every Oregon city and county, whether rural or urban, has 
vacant, underused and potentially contaminated properties that 
if left unchecked can be a nuisance on the community. If these 
sites are cleaned up, however, they could have meaningful 
economic impact on jobs, wages, and additional property tax 
revenue. The EPA Brownfields program has changed the way we 
perceive and manage contaminated property. The grants and 
assistance provided through the program empowers states, 
communities, and other economic redevelopment stakeholders to 
work together to assess, remediate, and sustainably reuse these 
properties.
    Recently this committee and our colleagues on the 
Transportation and Infrastructure Committee have begun re-
examining this important program. The discussion draft before 
us is a first step to addressing some of the issues we heard 
about in previous hearings. The bill we review this morning 
makes needed improvements to the Brownfields Program to ensure 
that, working together, we can continue to promote 
infrastructure and economic development and return contaminated 
property to productive use.
    My home state of Oregon has a very active Brownfields 
Program and we've seen some great recent success in my district 
in particular. Last year in The Dalles, Google broke ground on 
an expansion to their data center on 26 acres of former mill 
land that was cleaned up under this program. A $600 million 
investment expected to create 50 new jobs. In my hometown of 
Hood River, the Port of Hood River just finished a Brownfields 
cleanup of another former mill site, opening up over 12 acres 
of land for future business opportunities in the area.
    Oregon is also on the leading edge of brownfields cleanup. 
In fact, in 2015 the Oregon state legislature took steps to 
encourage local governments to acquire and redevelop 
contaminated properties through the creation of Land Bank 
Authorities. These Land Banks would purchase or acquire 
brownfields properties and promote development in ways that 
meet the local community's particular needs.
    The Oregon Department of Environmental Quality supports 
fully funding the Brownfields Program and enthusiastically 
supports many of the revisions made by the discussion draft.
    We hope that the witnesses here today will let us know if 
we are on the right track with the discussion draft and if 
necessary, that they will help us identify other ways to 
improve the Brownfields Program and the brownfields law.
    Our new EPA Administrator has stressed the importance of 
getting contaminated sites cleaned up and the Brownfields 
Program is a vital component of this process. Therefore, we 
remain committed to working with our colleagues across the 
aisle and on the Transportation and Infrastructure Committee to 
ensure that the Brownfields Program will continue to encourage 
EPA, states, and local governments to work together to 
redevelop brownfields properties and create new jobs, leverage 
private investment, and provide for economic development. And 
I'm hopeful the witnesses here today can provide us their 
thoughts on the discussion draft before us today and other ways 
to improve the Brownfields program as we continue our work.

    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the ranking member of the full 
committee, Mr. Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. I thank the chairman for holding this hearing 
on draft legislation to reauthorize EPA's important Brownfields 
Program. This discussion draft reflects input from the 
Democratic staff, and I thank the chairman for working with us. 
I hope we can craft a strong bill that can become law because 
the Brownfields Program has always been bipartisan and it 
should continue to enjoy bipartisan support.
    At the outset, I would like to express my frustration that 
the Environmental Protection Agency was unable to provide a 
witness for this hearing. It is particularly important to have 
the views of the administration represented at hearings where 
we are reviewing legislation. There is also important work to 
be done. So, I hope that the Trump administration can finally 
get around to nominating people for senior leadership positions 
at the EPA.
    I also want to note at the start that there are serious 
concerns hanging over this hearing because of recent reports 
that the Trump administration wants to defund or significantly 
cut the Brownfields Program. Brownfields funding is so 
important for communities around the nation, and the return on 
investment is substantial. Congress will have the final say on 
funding levels, and I hope that all of my colleagues will join 
me in calling for robust brownfields funding.
    Now, with regard to the hearing, it is great to see 
Elizabeth Mayor Chris Bollwage, who is a good friend. He has 
advocated for the Brownfields Program before Congress many 
times, dating back to when we passed the original brownfields 
bill in 2002. And I was the ranking member of the subcommittee 
then and I worked with the Republican chairman of the 
committee, the late Paul Gillmor of Ohio, to create the 
Brownfields Program. It is fitting that Mayor Bollwage is back 
today as we take the first formal step toward reauthorizing the 
program. Thank you for being here.
    The Brownfields Program has been an incredibly important 
tool for protecting public health and spreading economic growth 
in New Jersey and throughout the country. With financial help 
from the federal government, communities can clean up 
contaminated sites and prepare them for development for parks, 
commerce, housing, or a number of other uses that can benefit a 
local community. Though these contaminated sites do not warrant 
listing on the National Priorities List like Superfund sites, 
they still have negative environmental and economic impacts.
    By almost any metric, the Brownfields Program has been 
remarkably successful. Since the program's inception, more than 
25,000 contaminated sites have been remediated, allowing 
communities to create new developments, reduce health risk, 
decrease pollution, and reduce stormwater runoff.
    And this is not just a program that provides environmental 
and health benefit, it is a job creator that primes the pump 
for local investment and development. All told, the Brownfields 
Program has leveraged over $22 billion in investments around 
these sites, which is a stunning return on the federal 
government's modest investment in the program. And simply put, 
it provides tremendous value to the federal government and a 
boost to the economy of local communities.
    There is no question that brownfields has been successful, 
but I still think there is a lot of important cleanup work that 
needs to be done. When this subcommittee held a hearing on the 
Brownfields Program last year, we heard from witnesses about 
the staggering number of brownfields properties that needed 
remediation and the increased complexity of the remaining 
sites. Stakeholders also indicated a need for increased funding 
and flexibility to allow states and local communities to use 
their resources effectively to address the new challenges 
presented by these cleanups.
    And the legislation we are considering today is a good 
start toward achieving the goal of making the Brownfields 
Program work better for communities across the country. It sets 
up more flexible multipurpose grants, increases caps for 
individual grants, and extends program eligibility to nonprofit 
organizations.
    But, despite the growing need for resources and broad 
support on both sides of the aisle, this program has never been 
reauthorized. And while the program has continued to receive 
appropriations, unfortunately, funding levels have declined.
    Now I have introduced legislation, the Brownfields 
Authorization Increase Act, which would make many of the same 
changes reflected in today's discussion draft, but would also 
increase authorization levels for the program because we can't 
continue to expect the same success from a program that is 
underfunded and lacking the necessary to tools to be effective. 
So, as we work to determine how we can strengthen this program, 
Mr. Chairman, I think we have to ensure that funding and 
increased funding is part of the conversation.
    But today's hearing represents encouraging progress on 
finally reauthorizing the Brownfields Program. If 
infrastructure is, indeed a priority of this administration, 
they should look no further than the Brownfields Program as a 
way to create jobs and spur local investment, all while 
cleaning up contamination in our local communities.
    So, again, thank you, Mr. Chairman. I look forward to the 
witnesses. I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    I thank the Chairman for holding this hearing on draft 
legislation to reauthorize EPA's important Brownfields program. 
This discussion draft reflects input from the Democratic staff, 
and I thank the Chairman for working with us. I hope that we 
can craft a strong bill that can become law. [The Brownfields 
program has always been bipartisan, and it should continue to 
enjoy bipartisan support.
    At the outset, I would like to express my frustration that 
the Environmental Protection Agency (EPA) was unable to provide 
a witness for this hearing. It is particularly important to 
have the views of the Administration represented at hearings 
where we are reviewing legislation. There is important work to 
be done, so I hope that the Trump Administration can finally 
get around to nominating people for senior leadership positions 
at EPA.
    I also want to note at the start that there are serious 
concerns hanging over this hearing because of recent reports 
that the Trump Administration wants to defund or significantly 
cut the Brownfields program. Brownfields funding is so 
important for communities across the nation, and the return on 
investment is substantial. Congress will have the final say on 
funding levels for this program and I hope that all of my 
colleagues will join me in calling for robust brownfields 
funding.
    Turning to this hearing, it is great to see Elizabeth Mayor 
Chris Bollwage from my home state of New Jersey here today. 
Mayor Bollwage has advocated for the Brownfields program before 
Congress many times, dating back to when we passed the original 
Brownfields bill in 2002. I was the Ranking Member of the 
Subcommittee then and I worked with the Republican Chairman of 
the Subcommittee, the late Paul Gillmor of Ohio to create the 
Brownfields program. It is fitting that Mayor Bollwage is back 
today as we take the first formal step toward reauthorizing the 
program.
    The Brownfields program has been an incredibly important 
tool for protecting public health and spurring economic growth 
in New Jersey and throughout the country. With financial help 
from the federal government, communities can clean up 
contaminated sites and prepare them for development for parks, 
commerce, housing, or a number of other uses that can benefit a 
local community. Though these contaminated sites do not warrant 
listing on the National Priorities List like Superfund sites, 
they still have negative environmental and economic impacts.
    By almost any metric, the Brownfields program has been a 
remarkable success. Since the program's inception, more than 
25,000 contaminated sites have been remediated, allowing 
communities to create new developments. EPA has found that 
cleaning up underutilized or abandoned brownfields properties 
reduces health risks, decreases pollution, and reduces storm 
water runoff.
    But this is not just a program that provides environmental 
and health benefits--it is a job creator that primes the pump 
for local investment and development. All told, the Brownfields 
program has leveraged over $22 billion in investment around 
these sites, which is a stunning return on the federal 
government's modest investment in the program. Simply put, it 
provides tremendous value to the federal government and a boost 
to the economy of local communities.
    Brownfields has been a major success, but there is still so 
much important cleanup work that needs to be done. When this 
Subcommittee held a hearing on the Brownfields program last 
year, we heard from witnesses about the staggering number of 
brownfields properties in need of remediation and the increased 
complexity of the remaining sites. Stakeholders also indicated 
a need for increased funding and flexibility to allow states 
and local communities to use their resources effectively to 
address the new challenges presented by these cleanups.
    The legislation we are considering today is a good start 
toward achieving the goal of making the Brownfields program 
work better for communities across the country. It sets up more 
flexible multi-purpose grants, increases caps for individual 
grants, and extends program eligibility to nonprofit 
organizations.
    Despite the growing need for resources and broad support on 
both sides of the aisle, this successful program has never been 
reauthorized. And while the program has continued to receive 
appropriations, unfortunately, funding levels have declined.
    I have introduced legislation, the Brownfields 
Authorization Increase Act, which would make many of the same 
changes reflected in today's discussion draft but would also 
increase authorization levels for the program. We cannot 
continue to expect the same success from a program that is 
underfunded and lacking the necessary tools to be effective. As 
we work to determine how we can strengthen this program, we 
should ensure that funding is part of the conversation.
    Today's hearing represents encouraging progress on finally 
reauthorizing the Brownfields program. If infrastructure is 
indeed a priority of this administration, they should look no 
further than the Brownfields program as a way to create jobs 
and spur local investment, all while cleaning up contamination 
in our local communities.
    Thank you, and I look forward to hearing from our 
witnesses.

    Mr. Shimkus. The gentleman yields back his time.
    We now conclude with members' opening statements. The Chair 
would like to remind members that, pursuant to committee rules, 
all members' opening statements will be made part of the 
record.
    We want to thank our witnesses for being here today and 
taking the time to testify before the subcommittee. Today's 
witnesses will have the opportunity to give opening statements, 
followed by a round of questions from members. Of course, your 
full opening statements will be submitted for the record.
    On our witness panel today, and I will introduce you all 
right now and, then, we will just give you the 5 minutes time. 
We have, as mentioned before, the Honorable Mayor Bollwage, 
Mayor of the City of Elizabeth, New Jersey, on behalf of the 
U.S. Conference of Mayors. We are thinking about getting you a 
punch card for testimony and, after the fifth time, you get a 
free sandwich or something.
    [Laughter.]
    Don't you think, Ranking Member? We could split the cost on 
that maybe.
    [Laughter.]
    The Honorable Salvatore Panto, Mayor of the City of Easton, 
Pennsylvania, on behalf of the National League of Cities; the 
Honorable Parris Glendening, former Governor of Maryland and 
the President of the Smart Growth American Leadership 
Institute; Mr. Robert Martineau, Commissioner of the Tennessee 
Department of Environment and Conservation, on behalf of the 
Environmental Council of the States; and Mr. Meade Anderson, 
who has testified before, also a brownfields Program Manager at 
the Virginia Department of Environmental Quality, on behalf of 
the Association of State and Territorial Solid Waste Management 
Officials, ASTSWMO.
    We appreciate you all being here. We will begin the panel 
with Mayor Bollwage, and you are now recognized for 5 minutes. 
Again, welcome.

STATEMENTS OF HON. J. CHRISTIAN BOLLWAGE, MAYOR OF THE CITY OF 
  ELIZABETH, NEW JERSEY, ON BEHALF OF THE U.S. CONFERENCE OF 
  MAYORS; HON. SALVATORE J. PANTO, JR., MAYOR OF THE CITY OF 
   EASTON, PENNSYLVANIA, ON BEHALF OF THE NATIONAL LEAGUE OF 
CITIES; HON. PARRIS N. GLENDENING, FORMER GOVERNOR OF MARYLAND 
   AND THE PRESIDENT OF THE SMART GROWTH AMERICAN LEADERSHIP 
  INSTITUTE; ROBERT MARTINEAU, COMMISSIONER OF THE TENNESSEE 
 DEPARTMENT OF ENVIRONMENT AND CONSERVATION, ON BEHALF OF THE 
ENVIRONMENTAL COUNCIL OF THE STATES, AND J. MEADE R. ANDERSON, 
      BROWNFIELDS PROGRAM MANAGER, VIRGINIA DEPARTMENT OF 
 ENVIRONMENTAL QUALITY, ON BEHALF OF THE ASSOCIATION OF STATE 
   AND TERRITORIAL SOLID WASTE MANAGEMENT OFFICIALS, ASTSWMO

            STATEMENT OF HON. J. CHRISTIAN BOLLWAGE

    Mr. Bollwage. Thank you very much, Mr. Chairman and Ranking 
Member Tonko. It is good to see you gentlemen again and my 
friend from New Jersey, Congressman Pallone.
    I have been the Mayor since 1993 in the City of Elizabeth. 
I serve as a trustee and the Brownfields Co-Chair for the 
Conference of Mayors. As you stated, I have been here many 
times on this issue.
    As we all know, brownfields redevelopment helps build our 
community, creates jobs. And I want to thank the committee for 
the draft bill.
    For many people, brownfields is just a neighborhood 
eyesore, former industrial site, but for mayors they represent 
unrealized potential. We see the redevelopment of brownfields 
as a chance to bring back jobs to our community and 
revitalization.
    Congressman Tonko, you talked about 26,000 brownfields 
sites that have been assessed, 5,700 properties, 66,000 acres 
are ready for reuse, 123,000 jobs created, and $23.6 billion 
leveraged. Last time I was here, I told you about the Jersey 
Gardens Mall, one of our most successful brownfields 
redevelopment stories, 2 million square feet of retail space, 
over 200 stores, 5 hotels, 1,700 construction jobs, 4,000 
permanent jobs.
    Another successful project we did in brownfields 
redevelopment, the Elizabeth HOPE VI Project, this former 
industrial spot has a new $15 million townhouse development 
made up of 55 market-rate luxury housing waterfront views. It 
also includes a federally-funded HOPE VI Program which has 
assisted in the removal and the replacement of public housing 
complexes into townhomes. Individuals previously residing in 
old, dilapidated facilities now have the opportunity to become 
homeowners in a new residential neighborhood.
    The Brownfields Program has a proven track record, 
leveraging private sector investment, creating jobs, and 
protecting the environment. And as all of you have noted, there 
is more work to be done.
    I have included in my testimony a letter on behalf of the 
USCM, NACO, NLC, and the NARC encouraging you to reauthorize 
this bill.
    Some of the recommendations we would like to make, we 
notice you didn't list an appropriations amount, but, as you 
all know, we can't stress enough it is a very successful 
program; it can always use more funding.
    EPA estimates that in the past 5 years over 1,600 vital 
projects/applicants were funded. An additional 54,000 jobs 
would have happened with more than $10.3 billion in leveraged 
funding.
    So, our thoughts are increasing the cleanup grant amounts. 
We commend you for going up to $750,000. We think, if at all 
possible, to go $1 million, and in special circumstances on 
occasion some people may need $2 million for the additional 
resources.
    We are very pleased your discussion draft creates a 
multipurpose grant, so that we can be more market-friendly. We 
are supportive of the $1 million authorization levels. How 
detailed would the overall plan be? One of our visions for this 
type of grant is to be flexible enough to meet market needs. An 
applicant may have a certain vision for an area, but a 
developer may have other ideas. We wouldn't want the applicant 
to not be able to use the funds if the funds do not correspond 
with the initial vision.
    Ownership. We are currently checking to see if having to be 
an owner before expending remediation funds would be an 
impediment. We would like to get back to you at a later date on 
that issue.
    Removing barriers to encourage redevelopment mothball 
sites, it is a big problem in some communities where owners are 
just not willing to sell or give up their property. So, we 
believe that the additional liability protection that you have 
included may potentially address some of these types of sites, 
and for that, we are grateful. We are, however, awaiting some 
additional feedback from other cities and would like the 
opportunity to provide the committee with some of our findings.
    We are also pleased that you have included administrative 
costs. We are grateful that you are acknowledging that this is 
a need in the bill.
    Clarifying eligibility of public-owned sites acquired 
before 2002, we thank the committee for developing what we 
think is a very good solution.
    Encouraging brownfields cleanups by Good Samaritans, it is 
a situation that we think we should address in order to have 
additional help in cleaning up those sites. We will welcome the 
opportunity to bring in some of our experts to work with you on 
a further solution.
    I once again want to thank the subcommittee for having me 
testify here today and give our initial comments. And, Mr. 
Chairman, I can tell you this is about my 12th time testifying 
on brownfields between the House and the Senate.
    Mr. Shimkus. That is two sub sandwiches.
    Mr. Bollwage. That is two sub sandwiches.
    [Laughter.]
    Thank you for your time, Mr. Chairman and Ranking Member 
Tonko and Members of the Committee.
    [The prepared statement of Hon. J. Christian Bollwage 
follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Shimkus. Thank you very much.
    Now we would like to recognize the Honorable Mr. Panto, 
Mayor of the City of Easton, Pennsylvania, on behalf of the 
National League of Cities.
    Today is election day, municipal election day, in Illinois. 
So, we don't know who our mayor is going to be until tonight.
    You are welcome to be recognized for 5 minutes.

           STATEMENT OF HON. SALVATORE J. PANTO, JR.

    Mr. Panto. Good morning, Chairman Shimkus and Ranking 
Member Tonko. We appreciate the members of the subcommittee 
holding this hearing today.
    I am here on behalf of the National League of Cities, the 
oldest and largest organization, representing 19,000 cities and 
towns of all sizes across America.
    I appreciate the opportunity to share our perspective on 
the importance of this Brownfields Program and recommendations 
to strengthen it, as the committee considers reauthorization.
    While Easton is a very small city in comparison to many, 
with a population of 29,000 and 5 square miles, our industrial 
legacy has left us with two brownfields sites that were blight 
on our community for over 30 years. For nearly 100 years, the 
Simon Silk Mill was an economic powerhouse for our city and the 
region, employing more than 2,000 workers. The mill closed in 
the 1970s, because of the heavy contamination of asbestos, lead 
paint, sludge, and underground pipes. Developers were unwilling 
and unable to invest the necessary financial resources into 
cleaning up and revitalizing this important parcel in the 
middle of our city.
    It wasn't until the city received a brownfields cleanup 
grant in the amount of about $300,000 in 2009 that the 
redevelopment became an option for the city. Today the cleanup 
is complete. A new mixed-used development is starting to come 
online, providing new residential, retail, and commercial 
opportunities along with arts and entertainment.
    We have had tremendous success revitalizing this property 
in the heart of our city with over $100 million of private 
investment, but we have another brownfields site that remains a 
public safety hazard and is economically unviable for 
development unless additional grants and incentives are 
available.
    As a local government official, like our Mayor to my right, 
I could attest to the fact that brownfields developments can be 
a powerful economic tool. Turning polluted properties back into 
productive real estate helps create jobs in distressed 
communities like my own while simultaneously improving the 
public health and safety of our neighborhoods.
    But brownfields redevelopment involves a lot of risk for 
cities as well and for developers. Greenfield development is 
cheaper, it is faster and more economical. But what better way 
to create sustainable, permanent jobs than reinvest in our 
civic infrastructure of our urban core and our neighborhoods.
    In order to support our cities and towns who are leading 
this charge, NLC urges Congress to reauthorize the Brownfields 
Program and make key improvements, many of which are already 
included in the discussion draft we are talking about today.
    As our first priority, we would urge Congress to increase 
or maintain the current level of authorization of the program. 
NLC has reviewed the committee's discussion draft, and we are 
pleased to offer some preliminary comments, but also appreciate 
more time to give it a thorough review.
    Regarding remediation grant amounts, we are pleased that 
you are increasing it, but we, too, like the USCM, feel that a 
million dollars, with a possibility of $2 million--some of 
these sites are very complex, very complicated, and very large. 
Just to the west of me is Bethlehem Steel Plant, which is the 
largest brownfields site in the country. So, sometimes more 
money is needed to make it viable for development.
    For most brownfields sites, the only chance of 
redevelopment is through public acquisition, like we did with 
this 18 acres. But hidden liabilities can arise after cities 
acquire a property, even if the city had no role in creating 
the contamination.
    Thank you for addressing this issue by allowing governments 
to be eligible for grant funding for properties that were 
acquired prior to January 2002 as well, where local government 
has not caused or contributed to the contamination, but 
certainly we have the responsibility, as stewards of our 
environment and of our cities.
    Thank you for addressing the issue of voluntary acquisition 
of property in Section 1 by removing the term ``involuntary'' 
in describing the protected activities. We would like 
additional time to review the impacts of this section to 
determine if the language goes far enough to resolving 
municipalities. We are a target; we have deep pockets. So, we 
become a target for lawsuits.
    In closing, Easton and cities across the country are 
investing in their downtowns, urban cores, and neighborhoods. 
They are growing our economies and creating all kinds of 
communities with families that want to live, work, and play 
there, creating jobs, moving the country forward.
    But, even together and even though so much progress has 
been made across the country, the work is nowhere near 
finished, by your own estimates. The federal government needs 
to continue its commitment to the Brownfields Program and to 
the cities, to work and protect the citizens from pollution and 
also allow us to build economic opportunity. To increase the 
income of our residents is a real priority for most of our 
cities, enhancing their ability to work in sustainable jobs 
like the ones that we are creating at this former silk mill.
    Thank you for your leadership on this issue and the 
opportunity to speak on behalf of America's cities and towns. I 
look forward to your questions.
    [The prepared statement of Hon. Salvatore J. Panto, Jr. 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Shimkus. Thank you very much.
    The Chair now recognizes the Honorable Parris Glendening, 
former Governor of Maryland and President of the Smart Growth 
America's Leadership Institute. You are recognized for 5 
minutes. Welcome.

             STATEMENT OF HON. PARRIS N. GLENDENING

    Mr. Glendening. Thank you, Mr. Chairman. I appreciate this. 
Ranking Member Tonko as well and Members of the Committee, 
thank you for the opportunity to testify here today and for 
holding this hearing to discuss EPA's Brownfields Program.
    I was Governor of Maryland from 1995 to 2003 and, prior to 
that for 12 years, County Executive in Prince George's County. 
I say that because we have hands-on experience with using the 
brownfields in all of those different positions.
    Smart Growth America is a national nonprofit organization 
dedicated to bringing better development strategies to 
communities across the country. We are the home to the National 
Brownfields Coalition, which represented diverse economic, 
community, environmental, and development interests that share 
a common mission, that is, promoting brownfields redevelopment 
as a core strategy for achieving job growth, community 
revitalization, and sustainable growth objectives.
    It is estimated, as has been noted, that more than 450,000 
sites in the United States are contaminated and abandoned. 
These brownfields blight neighborhoods, they breed 
disinvestment, and they impose a cost on local government and 
their taxpayers. Cleaning up these sites can be cost-
prohibitive for public agencies and private developers alike.
    As the subcommittee considers ways to encourage the 
redevelopment of brownfields, I offer two key points to keep in 
mind. First, the changes in the market demand are favorable to 
brownfields redevelopment. Second, brownfields redevelopment 
sparks public and private investment.
    Today's discussion comes at a critical time. For decades, 
Americans and businesses moved away from downtowns to suburban 
and exurban markets. This trend has reversed. Our largest 
population groups, the millennials and the baby-boomers, and a 
range of businesses from large Fortune 500s to lean startups, 
to independent manufacturers, are all now looking for vibrant 
neighborhoods to live and to locate. These are the very places 
where brownfields are located.
    To accelerate private investment, we must ensure that we 
get regulatory and financial frameworking right. EPA estimates 
that every dollar of federal funding invested in brownfields 
redevelopment leverages $18 in total investment. This is a real 
opportunity right now for communities to draw investment and to 
grow their economies because the market forces are moving in a 
supportive direction.
    In Maryland, a Brownfields grant helped us to redevelop 
sites along Baltimore's Inner Harbor, which became one of the 
first major redevelopments, and also to bring major companies 
to be headquartered in the Harbor East neighborhood of 
Baltimore as well.
    I commend the work that was done in the discussion draft. 
These changes in the program are discussed in my written 
testimony. These are big wins for communities.
    Specifically, I am pleased to see that the discussion draft 
increases the funding ceiling for remediation grants from 
$200,000 to $500,000 and allows EPA to waive the limit up to 
$750,000 based on the level of contamination, the size, and the 
ownership status of the site.
    I am also pleased to see the discussion draft includes 
provisions eliminating the prohibition on communities using 
grant funding to cover administrative costs. We would like to 
see the percentage, however, used to pay administrative costs 
increased from 5 to 10 percent. This increase will reduce the 
administrative burden to distressed communities that do not 
have the capacity, such as rural communities as well as those 
in financial difficulties. We are working with smaller rural 
communities all over the country and see them unable to use the 
tools and the money available because of this challenge.
    Brownfields redevelopment is a win-win development 
strategy. Hundreds of communities, big and small, urban and 
rural, will benefit from this program.
    In conclusion, Smart Growth America stands ready to help 
these communities and the private sector realize the potential 
of the program to repurpose brownfields into assets.
    I reiterate my appreciation for this hearing and for the 
subcommittee's support of the brownfields redevelopment and the 
leadership and work that you have done to date. We look forward 
to working with you as well.
    [The prepared statement of Hon. Parris N. Glendening 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Shimkus. Thank you very much.
    The Chair now recognizes Mr. Robert Martineau, Commissioner 
of the Tennessee Department of Environment and Conservation, on 
behalf of the Environmental Council of the States. You are 
recognized for 5 minutes. Welcome.

                 STATEMENT OF ROBERT MARTINEAU

    Mr. Martineau. Thank you, Mr. Chairman and Ranking Member 
Tonko, and Members of the Subcommittee, Congresswoman 
Blackburn.
    My name is Bob Martineau. I am here on behalf of the 
Environmental Council of the States, a national organization of 
my fellow counterparts in the states across the country. New 
York and Illinois and Tennessee and most all the states are 
proud members.
    We really appreciate the opportunity to be here to talk 
about the reauthorization and the discussion draft. The subject 
of today's hearing is a program from which states like mine 
benefit greatly. Since the inception of our Brownfields Program 
in 1995, Tennessee has received over $12 million that has 
helped us spur economic redevelopment and bring jobs back into 
communities, both urban and rural.
    Brownfields redevelopment is at its heart economic and 
community development with improved environmental outcomes. 
Legislative approaches like these embedded in the discussion 
draft will make this already successful program even better.
    Brownfields programs represent the full spectrum of a win-
win, something we rarely find these days. On the environmental 
side, they will transform blighted properties that pose 
environmental risk into clean residences, commercial space, and 
open greenspaces and parks, new manufacturing facilities, and 
other economically-productive assets.
    On the economic front, they can serve as significant 
sources of revenue, increased property taxrevenues to local 
communities, and bring jobs to those communities. For example, 
Nashville is home to an area known as The Gulch. It was a once 
bustling railroad yard that dates back to pre-Civil War days. 
When passenger service was discontinued in 1979, The Gulch 
became the victim of blight and neglect, despite it being right 
in the middle of downtown Nashville.
    In the late 1990s, some visionary business folks looked and 
saw an opportunity for economic development as Nashville was 
growing and created a master plan of 25 acres. With our 
department's work and through the voluntary Brownfields 
Agreements Program, we were able to protect their liability by 
taking on this economically-blighted area.
    The Gulch was able to expand those redevelopment activities 
well beyond what was originally envisioned. And now, through 
several additional redevelopment activities, The Gulch and the 
North Gulch area is one of the most bustling parts of downtown 
Nashville. There are individual residences. It is mixed-use. It 
has become a tourist destination for the community. A brand-new 
hotel just opened up in the last year.
    The funding available for these Brownfields grants allows 
states to take on larger projects with positive economic 
results for the communities they redevelop. Expanding 
eligibility to nonprofit organizations and certain government 
entities, as well as allowing multipurpose grants like provided 
for in the discussion draft, can increase these positive 
results.
    Additionally, allowing some administrative costs, 
particularly for those local communities to help bear the cost 
of moving forward with these grants, is a welcome change. The 
Brownfields grants represent the seed money for private 
investment. As others have noted, a dollar invested through the 
Brownfields grants yields at least $18 in leveraged private 
investment.
    In Knoxville in east Tennessee, $400,000 of EPA grant 
assessment was awarded for a south waterfront property area. It 
has already leveraged more than $150 million in private 
investment at a former hospital site and a $8 million public 
park. Working together with a variety of parties on remediation 
allows a far greater capacity for revitalization by allowing 
these partnerships.
    Legislation that expands the ability for organizations to 
partner and investment in brownfields projects would allow 
communities to leverage greater resources and greater amounts 
of capital for improved outcomes. A common goal of brownfields 
program is to make contaminated sites safe for reuse that 
creates jobs and spurs economic development.
    Legislation that reduces the risk for the investors in 
remediation efforts would only enhance these opportunities and 
allow investors to reuse existing infrastructure properties 
that might otherwise go wasted or folks would have to look for 
a greenfield site.
    For example, in rural Tennessee in Sparta there is an old 
lighting facility there that closed in 2012. It was sitting 
vacant. Jackson Kayak, one of the largest goods exporters in 
Tennessee, identified the plant as a potential expansion 
location and, with the help of the local development district 
and an EPA Brownfields grant, they were able to renovate the 
existing facility by giving them liability protection for the 
preexisting conditions, but allowing $6.5 million investment in 
property in a small town of 5,000 people that created 250 new 
jobs.
    States are seeking ways in which organizations can safely 
invest in remediation efforts without being restricted by 
liability concerns. Responsible legislation that helps that is 
greatly supported.
    Mr. Chairman, Ranking Member, Members of the Subcommittee, 
I thank you again for the leadership in preparing this 
discussion draft and for the opportunity to present to you 
today on behalf of ECOS.
    [The prepared statement of Robert Martineau follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
      
    Mr. Shimkus. Thank you very much.
    The Chair now recognizes Mr. Meade Anderson, Brownfields 
Program Manager at the Virginia Department of Environmental 
Quality, on behalf of the Association of State and Territorial 
Solid Waste Management Officials. Again, you are recognized for 
5 minutes. Welcome.

               STATEMENT OF J. MEADE R. ANDERSON

    Mr. Anderson. Good morning, Chairman Shimkus and Ranking 
Member Tonko, and Members of the Subcommittee. Thank you for 
the opportunity to speak to you today.
    I think I am going to be an echo of everything that you 
have heard already today.
    Mr. Shimkus. If you could, pull the microphone down just a 
little bit?
    Mr. Anderson. Yes, sir.
    My name is Meade Anderson, and I am Chair of the 
Brownfields Focus Group of the Association of State and 
Territorial Solid Waste Management Officials, ASTSWMO. I am 
here today representing ASTSWMO. ASTSWMO is an association 
representing the waste management and remediation programs of 
50 states, 5 territories, and the District of Columbia.
    ASTSWMO was a strong supporter of the Brownfields Program. 
Brownfields are evidence of our country's private, industrial, 
commercial, and social heritage. These once thriving 
properties, now abandoned, contribute to the economic, social, 
and environmental decline in places we live, work, and play.
    However, their redevelopment has substantial benefits. 
Brownfields redevelopment sparks job creation and private 
investment, encourages infrastructure reuse, increases property 
values, improves the tax base, and facilitates community 
revitalization. For the past 15 years, state and territorial 
brownfields programs, in collaboration with local communities 
and our federal partners, have served to break down barriers to 
redevelopment. 128(a) funding has allowed states to build a 
buffet of services particular to their specific needs. Services 
can be assessed and combined, depending upon the project and 
the entity pursuing the project.
    At any given time, you will find state program staff across 
the country providing environmental site assessments, assisting 
communities to apply for brownfields grants, providing 
education on brownfields redevelopment, assisting entities to 
manage environmental risk and liability, providing crucial 
technical support, and managing voluntary cleanup programs that 
are the basis for safe reuse of these properties.
    Properties going through our programs may use one or all of 
our services, but the underlying theme is that we could not 
provide them with a 128(a) grant. While many envision 
brownfields as an urban problem, we would like to highlight the 
important role we play in small cities, towns, and rural areas. 
Due to limited resources, these smaller local governments can't 
afford to have an environmental professional or grant writer on 
staff, so they require a higher level of project assistance. In 
many cases, redevelopment in these towns would not happen 
without 128(a)-supported services.
    Since the beginning of the 128(a) program in fiscal year 
2003, funding has been provided at just under the $50 million 
level; whereas, the number of applicants has more than doubled. 
In the first year, 80 states, territories, and tribes received 
funding. By 2016, 164 requested funding, including 50 states, 4 
territories, the District of Columbia, 109 tribes, 8 of which 
were new applicants. The awards in 2003 averaged $618,000, 
while in 2016 they averaged $293,000, less than half.
    A result of this budgetary slide and inflation, states have 
increasingly resorted to cost-saving measures such as cutting 
brownfields staff, cutting or eliminating the amount of 
assistance provided, increasing fees, and reducing the number 
of environmental assessments. This particularly impacts our 
rural partners, as they frequently require more support 
services than some of our urban projects.
    We are at a critical juncture in our national history where 
expansion of our municipal boundaries, while attractive short-
term, leads to increased infrastructure cost that we can ill 
afford. While rebuilding our infrastructure, we have the 
opportunity to revitalize the surrounding areas, which will 
help build a more robust economy.
    Brownfields redevelopment and economic development go hand-
in-hand. Keep in mind brownfields investment is a good one. 
Funding provided for brownfields redevelopment multiplies in 
our communities and attracts additional private and public 
investment. According to the studies indicated in my written 
testimony, $1 of brownfields investment generates in Delaware 
$17 in return on the initial investment. In Wisconsin, that $1 
leverages $27 in total funding and resources. In Oregon, $1 
equals $15, according to a 2014 study. And in Michigan in 2016, 
if you spent $1 on brownfields redevelopment, you received 
about $34 in leveraged funds. And brownfields are the gift that 
keeps giving by increasing the tax base and improving the very 
neighborhoods we live in or near.
    Since 2015, Oklahoma has garnered over $10 million in new 
state and income taxes annually on remediated sites. In 2014, 
Oregon's program found that 51 completed sites in their survey 
generated 4,300 permanent jobs. Sixty percent of those were in 
the industrial sector.
    To summarize, ASTSWMO believes that a robust brownfields 
program at all levels of government is essential to our 
national economic and social and environmental health. We have 
a position paper that is filed with our written testimony.
    I thank you for the opportunity to testify, and we will be 
happy to answer any questions.
    [The prepared statement of J. Meade R. Anderson follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you, and I want to thank all of you for 
your testimony. We will now move to the question-and-answer 
portion of the hearing. I will begin by questioning and 
recognizing myself for the first 5 minutes.
    So, I want to lay out a couple of points and, then, I am 
going to ask for answers, as I kind of was thinking about this 
in kind of tight shot group.
    But, first, we want to reauthorize the program. We are 
always struggling with how do you appropriate money that in our 
system there is no authorization for; the authorization has 
lapsed. So, there is a desire to move reauthorization. The 
benefit of the reauthorization is it allows us to do oversight, 
look at the things that are positive, that have been 
successful, but also look at some of the barriers that may 
inhibit success or the proper functioning of the program.
    There is always a caution. Everybody always wants more 
money. And the leveraging is great if we could get a return, if 
the federal government got a return on that, not that I am 
proposing that, but it is just we have to be smart in what we 
are asking for, even though the benefits are clearly spoken by 
you all on the leverage of funds.
    This is a question to the entire panel. There are two of 
them. One is, based upon the discussion draft, what can be 
improved just in the language of the draft itself? The next 
question will be, what is your wish list on things that are in 
it?
    Again, I want, if I can, to just go down. Many of you 
testified this in your opening statements, but, of course, they 
are woven in the story of all the benefits and the challenges 
and stuff. So, I just want to try to get a close shot group on 
things you can improve in the language of the discussion draft 
and, then, we will follow up to what is on a wish list.
    So, Mayor Bollwage, if you want to start?
    Mr. Bollwage. Thank you, Mr. Chairman.
    On your one statement when you talked about the federal 
government getting return, if you look at the Jersey Gardens 
Mall and the 4,000 jobs and the federal income tax that is 
being paid on all those jobs, it is some return. I am sure I 
and others can quantify that return to the federal government, 
if requested, Mr. Chairman. But I think that is a really good 
point that you just made.
    As far as the language goes on things to help better to 
clarify, we are very pleased with the creation of the 
multipurpose grant. To clarify the term in an area under the 
criteria section, the requirement is to submit an overall plan. 
We would like for local governments to be able to use this 
grant based on a market need citywide and would hope that it 
becomes eligible this way.
    We would also wonder if the EPA would be flexible if the 
original vision did not materialize and, instead, another one 
is implemented. If a developer comes in and they say, ``Mayor, 
you know, we want to build a flex warehouse on this 20-acre 
parcel,'' and then, somebody else comes in and says, ``We want 
to do an office building,'' and we already have the grant, 
can't we just switch the grant to do the office building?
    Mr. Shimkus. Mayor Panto?
    Mr. Panto. I would agree exactly with my colleague. The 
flexibility is very important to us. And as far as funding, I 
understand; we make those decisions every day. I understand the 
needs that are nationwide versus what we have as resources.
    But I will also agree, I wrote down also about the federal 
income taxes. Again, the whole reason for these brownfields is 
to increase the amount of good jobs that are in our 
communities. That means more taxes not just for us, but for you 
as well. So, I would point that out as well.
    And I would also say that the wish list is reauthorization. 
If we get reauthorization just in the form that it is in, we 
think the flexibility issue is important, especially in change 
of use or change bundling up the different sites in a 
community.
    But I would certainly agree that this authorization is 
needed immensely. Without this authorization, I really wonder 
where we are headed environmentally in this country.
    Mr. Shimkus. OK, great. Thank you.
    Governor Glendening?
    Mr. Glendening. Thank you.
    As our colleagues have indicated here, I think one of the 
major issues is increase the amount of money that can be used 
for administrative expenses. I know that sometimes sounds like 
a little bit of bureaucracy, or whatever, but we, Smart Growth 
America, work very aggressively across the country with small 
and medium-sized communities as well as some of the larger 
areas. What we find more than anything is that, generally, they 
do not have the internal capacity, nor in many cases do they 
even have the financial capacity to engage an appropriate 
consultant firm or something of this type.
    I just returned several days ago from Concord, New 
Hampshire, where we had a major effort working in terms of 
bringing senior housing in, and they identified several sites 
that were being delayed because they were the old mill sites.
    I also was in upstate New York with Governor Cuomo not long 
ago, working in Buffalo and surrounding communities, where we 
are going through the same type of thing: how do we make it 
flexible for the smaller community? Buffalo will be able to do 
it. The smaller communities around there are having a harder 
time. And so, I think that this flexibility in the 
administrative cost is a major issue.
    I would also add, to the extent that anything can be done 
to make it more flexible, as my colleagues here indicated, 
because plans change. What is happening in a really big way 
right now is the mixed-used development. People wants residence 
and housing and employment opportunities all together. When you 
put together a mixed-use project, what you start with when you 
apply for a brownfields is often not what you end up with by 
the time you get your private financing and all. So, I think 
that point becomes very important.
    Lastly, with the mixed-use development, one of the other 
major things that is going on across the country is the 
transit-oriented development. And I think the ability to 
somehow or other link these programs, because a lot of the 
transit-oriented sites are old brownfields sites as well. They 
were train stations, just like in the case of Santa Fe with 
that tremendous redevelopment that occurred there.
    The bottom line is I think you are all on the right track, 
and we appreciate that very much and lend whatever support we 
can, either technical or when we come to the discussions of the 
appropriations.
    Lastly, on the appropriations point, this administration is 
emphasizing jobs and return on investment and effective use of 
money. This is a model program to do just that.
    Mr. Shimkus. Thank you. My time has expired. So, I 
apologize to the last two panelists. I am sure they will get a 
chance to respond.
    I would now like to turn to the ranking member, Mr. Tonko, 
for 5 minutes.
    Mr. Tonko. Thank you.
    We heard this morning that some low-hanging fruit, as I 
said, that are easier to assess and clean up have already been 
addressed. Generally speaking, remaining brownfields sites may 
be more difficult, which is another word for expensive, to 
clean up.
    With that in mind, is it important to increase the 
potential size of grants? I would ask our entire panel. We 
could perhaps start with Mayor Bollwage.
    Mr. Bollwage. Thank you, Congressman Tonko.
    Yes, increasing the amount of grants is always helpful from 
a mayor's point of view. The panel has done that in going from 
$200,000 to $500,000 in the remediation grants. And we have 
suggested that even raising the limits on that is possible 
because there are some of these sites that can be extremely 
complex. At times, if we have it and we come back and say, 
``Hey, listen, for another $100,000, we might be able to get 
this done,'' we would hope that the EPA or the bureaucracy 
would be responding in a quick way.
    Mr. Tonko. Thank you.
    Mayor Panto?
    Mr. Panto. I would agree again with my colleague. We both 
are mayors, so we both have the same vision of what we need. 
And I think the million dollar threshold is a much better 
threshold because things are getting more--you said it 
directly--the low-hanging fruit is gone. These are tough sites 
with BCPs and a lot of soil remediation that is needed. The 
asbestos and lead is recognizable. It is the soil remediation 
that really takes a lot of cost.
    So, I would say, as I said, we all make these tough 
financial decisions today, no matter what level of government. 
But, if there is any program that the federal government does 
that shows the return on investment, this is it. A $300,000 
grant to our mill; we have $100 million of private investment 
creating jobs that are going to be very sustainable. That comes 
back to all of us.
    Mr. Tonko. Thank you.
    Governor Glendening?
    Mr. Glendening. Thank you.
    I concur with my colleagues here and also suggest that, as 
we look at larger amounts, that we keep almost a parallel mind 
thought about the flexibility, because a number of the 
developers that are coming in and successfully using these 
fields have a sophistication and have some deeper-pocket 
connections. And so, if they can be flexible in the upfront 
portion, I think we are going to see more complex and more 
expensive projects increasingly addressed.
    Mr. Tonko. Thank you.
    Mr. Martineau?
    Mr. Martineau. I think, one, the liability protections to 
governmental entities is key and others, because whether state 
or local governments being risk-averse don't want to get in 
that chain of title unless they end up being the owner of an 
abandoned property for liability purposes. So, doing that; the 
grants increasing, but, of course, the challenges, then, 
increase in front of you for the overall program. Obviously, 
the original $200,000 was almost 20 years ago, and just the 
cost of doing the investigation is important. But you trade off 
less total sites if you don't increase the funding. So, that is 
the challenge.
    And then, for particularly the rural communities, the small 
communities, some administrative costs just to help them fund 
it. As the governor said, they don't have the resources in 
house to hire the consultant and oversee that thing. But making 
that site available and already doing the study is important to 
get a prospective buyer in there.
    Mr. Tonko. Thank you.
    And, Mr. Anderson?
    Mr. Anderson. The larger grant amounts will be helpful to 
some of these very challenging sites. They are quite dark brown 
and there is no economic driver. Since real estate is cheap in 
some of these areas, these rural areas, the large grants are 
extremely important. However, as you realized, the larger 
grants means less that we have to give out in the way of awards 
out there with capped amounts.
    Thank you.
    Mr. Tonko. Right, and that is where I wanted to take this 
next question.
    Mayor Bollwage, your testimony states in the past 5 years 
over 1600 requests for viable projects were not awarded money 
because of limited funding and 30 percent of the application 
can be accepted. But what would be the impact of increasing 
grant awards without increasing overall funding for the 
program? Is there a concern that you have?
    Mr. Bollwage. Not really. I mean, increasing the grant 
awards would be helpful throughout the many cities in this 
nation in order to accomplish the goal. I mean, I recognize 
there's limited funding, and talking about the overall funding 
of the bill is another thing that is never discussed. I mean, 
one of the targets is $250 million, which is a reauthorized 
number. I think we would like to see it at $1 billion, if 
possible, over the time. But, naturally, that is not going to 
happen, either.
    Mr. Tonko. Well, it is your input that is valuable here.
    Anyone else on that question or concern?
    Mr. Glendening. I think it is important, just a discussion 
of the standard amount of money. We have really brewing an 
equity problem in this country, and this is one of the 
opportunities for reinvestment and development in areas that 
most desperately need it. They are more expensive. The truth of 
the matter is, if you want to do more in the size and more on 
the opportunities, you need more money in the bottom line.
    Mr. Tonko. Thank you. Thank you.
    Mr. Shimkus. The gentleman's time has expired.
    Now the Chair recognizes the gentleman from West Virginia, 
Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    Governor Glendening, you made a very interesting remark in 
your prepared testimony and your remarks about 450,000 
contaminated sites across the country. I travel through your 
area twice a week, back through Frostburg and Cumberland and 
Frederick and Hagerstown. I see those sites. They are still out 
there, these abandoned sites.
    It is my understanding that we probably remediate something 
less than a thousand a year. So, we are talking about 450 years 
ahead of us, and these are the sites that are the prime sites 
that over the years companies took because they had access to 
river, rail, and roads. And they are sitting there as a stigma 
in that community without be developed.
    So, I don't think there is any appetite in this panel for 
us to cut the funding. If anything, I think we are going to try 
to increase it, get back to the appropriated level of $250 
million and not less than that.
    My concern is, in part, with it, not only is the 450 years 
ahead of us, but I want to build off what Congressman Shimkus 
raised. That was he is walking on eggshells on this; I am 
willing to talk about it. That is, why aren't we talking about 
turning it into a revolving fund that we can provide monies as 
an option? In lieu of putting 20 percent of a cost-share, you 
return the investment back to the federal government, so that 
we can reward some other community over the years with this. 
Because if we are going to make up the pace of 450 years, we 
have got to find another funding source.
    Is there a problem, do any of you see a problem with 
turning it or evolving it as an option to go to a revolving 
fund where you return some? Mr. Anderson, you said it could be 
as much as $34-$35 for every dollar. Just imagine if we could 
return that money to a rural community that doesn't have the 
20-percent share. And I will venture to guess, even though it 
is in the law that you can waive your 20 percent, I guess that 
there aren't too many that are waived. So, having said that, 
does that make any sense to look at it as an option? Would that 
be an incentive to do this?
    Mr. Glendening. Congressman, if I might add real quickly, 
first of all, as a good neighbor, I appreciate West Virginia as 
much, to be sure. My son is a graduate of the University, and I 
regularly go through the same communities in West Virginia, way 
up there, and a lot of parallels in terms of needs as well.
    Mr. McKinley. Right.
    Mr. Glendening. We have used in Maryland some recapture 
efforts to go into a revolving fund on parallel programs, and 
they have worked well. And I think one of your basic theses is 
absolutely correct. That is, as we move ahead and as we look at 
the list of what is there, we have to examine every way, I 
think, to help both expand the bottom-line amount, but also to 
recapture and to be able to put some funds into the future of 
this.
    Mr. McKinley. In terms, Governor, of the timeframe, we had 
some testimony a year ago about go monthly rather than annual. 
Would being able for communities to be able to do it on a 
monthly basis, to try, would that help increase participation 
in this, rather than annual application grants?
    Mr. Bollwage. Congressman, some cities do do revolving loan 
funds, and it was a staple of efforts to renew their grant, 
which is no longer existing. But a lot of cities and counties 
will do revolving funds, but, in all honesty, no mayors want to 
give money back to the federal government.
    [Laughter.]
    Mr. McKinley. I do understand that.
    Mr. Panto. Congressman, I am going to go way off script 
here. I think the whole idea of brownfields is what is 
happening with the greenfields. It is so much easier and 
cheaper to develop outside the urban cores. There is where you 
need to get your impact fees.
    Mr. McKinley. OK.
    Mr. Panto. Put an environmental impact fee on taking our 
agricultural lands away and creating more industries. And they 
are not industries; they are distribution centers.
    Mr. McKinley. Mayor, if I could on that, I am hearing from 
other people that I have talked to about this that they are 
still abandoned, some of these, for whatever reason. Is there 
an appetite, do you think, with developers or so to look for 
tax credits for people to locate in these brownfields sites? 
That is, would that be part of an incentive that might get 
people to locate there? Because it goes to the heart of the 
issue about creating jobs, especially in downtown areas.
    Mr. Panto. And we are doing that with incentives from the 
state and local government. This mill, if you move there, until 
2023 you don't pay any local or state income taxes. The 
developer doesn't pay any real estate taxes. So, we are doing 
those incentives, and they do work. And maybe that is something 
that can work at the federal level. I would be more than happy 
to look into that.
    Mr. McKinley. OK. I am sorry, I went over my time. I yield 
back.
    Mr. Shimkus. The gentleman yields back the time.
    The Chair now recognizes the gentleman, the ranking member 
of the full committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman, and I thank the 
witnesses also.
    Because I really think this is an issue that we can work on 
in a bipartisan manner, so I am going to continue to stress 
that. The committee process so far has been productive, and I 
want to continue working with my colleagues to craft a bill 
that becomes law.
    I do want to say, though, before I get to questions, that I 
feel strongly about we should not open up liability under 
Superfund in this bill, which is the cornerstone of the 
Superfund Program. The 2015 Gold King Mine spill showed us the 
serious risks that could come from creating carveouts for Good 
Samaritans in the law, when EPA unintentionally caused the 
release of toxic wastewater near the entrance of the mine. So, 
if Good Samaritan protections have been in place, people in 
communities harmed by that spill might not have been able to 
recover their cleanup costs.
    The other thing is that my colleagues have already touched 
on the change in individual grant caps, and that change is 
included in my bill to reauthorize the Brownfields Program and 
it is also in the discussion draft. But that change has to be 
done in a balanced manner.
    So, let me get to some questions. Mr. Anderson, you 
mentioned that competitive brownfields grants are in high 
demand and, due to lack of sufficient funding for the program, 
many applications go unfunded. My question is, increasing the 
cap on individual grants under current funding levels will, 
indeed, lead to even fewer applications being funded, is that 
correct?
    Mr. Anderson. I would think so.
    Mr. Pallone. And so, we really need to pair these changes. 
We want to increase the cap to allow more flexibility, but we 
need to raise the overall funding level at the same time, which 
is, obviously, what I advocate. Do you agree with that? Or do 
you want to comment on that?
    Mr. Anderson. Yes, I think you are absolutely right. The 
blanks that are in the legislation are probably the biggest 
issue. The legislation as a whole provides new flexibility, and 
I think it is good.
    Mr. Pallone. All right. This will be to Governor 
Glendening--the discussion draft, like my bill, also includes 
language to allow nonprofits to apply for brownfields grants. 
Governor, do you support that change? Do you want to comment on 
that?
    Mr. Glendening. I think there is a good change affected by 
written comments. It does elaborate a little bit upon that. In 
a number of areas, a nonprofit is not only an active partner, 
but in some cases is the only partner, and particularly when 
this is used for things like turning into a workforce and 
affordable housing and addressing communities where inequity 
has been pretty severe in the past and they do have the private 
sector funding at this moment. And so, the nonprofit partners 
have worked, and there are numerous cases, and again I must 
stress particularly for affordable housing.
    Mr. Pallone. All right. Thank you, Governor.
    Mr. Chair, I wanted to very quickly mention two other 
important changes that are both in my bill and the discussion 
draft to clarify the eligibility of governments that acquired 
land through eminent domain or before the Brownfields Program 
was authorized in 2002.
    I guess I will ask Mayor Panto about those changes and 
whether you would support those changes.
    Mr. Panto. Not only do we support them, we encourage you to 
keep them in the bill.
    Also, when it comes to the eminent domain, the one thing in 
there I did like was the word ``purchase''. Because oftentimes, 
in order to clean up your community, you have to do an outright 
purchase, like we did. The city of Easton purchased that mill 
site. We used state dollars for it, but we did purchase it. We 
became the owner. So, the liability portion that Mr. Anderson 
talked about and, then, this portion, we believe that you are 
absolutely right on target there. It would be a big help.
    Mr. Pallone. OK. I haven't asked my New Jersey mayor to 
comment. All right, I will ask you for lunch.
    [Laughter.]
    Thanks for being here.
    It seems to me that there is a lot of support among the 
stakeholders for reauthorizing the Brownfields Program and for 
making the clarifying changes included in the discussion draft. 
And there is also unanimous support among the stakeholders for 
increasing the funding level. So, Mr. Chairman, I hope we can 
not only continue to move forward with this legislation, but 
also that we can do something to increase the funding levels, 
which I think is important.
    And I yield back.
    Mr. Shimkus. The gentleman yields back.
    The Chair now recognizes the gentleman from Texas, Mr. 
Olson, for 5 minutes.
    Mr. Olson. I thank the Chair.
    And welcome to all of our witnesses.
    My hometown is Houston, Texas. We have the world's largest 
petrochemical industry. We have the world's largest medical 
complex, the Texas Medical Center. We have America's No. 1 
exporting port, the Port of Houston. And we have a lot of 
brownfields sites all across our region. They are all over.
    Put that slide up, please. This is the best example of how 
a brownfields can work. This is smack-dab in downtown Houston. 
It is an old railroad station, a dilapidated industrial 
facility with many, many, many corrugated metal buildings in 
complete decay.
    Next slide, please. Here's that brownfields today. That is 
the 42,000-seat Minute Maid Ballpark.
    Mr. Shimkus. Is that a Minor League park?
    Mr. Olson. No, sir.
    Mr. Shimkus. A semi-pro team?
    [Laughter.]
    Sorry.
    Mr. Green. Mr. Chairman, if the gentleman will yield, I 
want to comment. I appreciate that, and I want to remind you 
the Astros won their opener last night.
    Mr. Olson. My comment is about that. As you can see from 
the little placard here, according to Sports Illustrated, on 
June 30th of 2017, that stadium will be the home of the 
Baseball World Series Champions, our Houston Astros.
    [Laughter.]
    And I am proud to say, after yesterday, we are on track to 
win 162 games and have nobody score one against us. Go Astros.
    But, to be a little serious, this was a true public/private 
partnership with private in uppercase letters; public in 
lowercase letters. EPA spent about $800,000 to have this 
brownfields take and made into Minute Maid Park. Houston, local 
Houston people raised over $800,000 versus $500 million.
    And so, my question for the whole panel is, who would do 
these projects like Minute Maid Park without federal 
assistance? Mr. Anderson?
    Mr. Anderson. Thank you.
    Often the real spur of a development like that is that 
initial investment of cash. The developers look at these 
properties and they don't know whether they want to spend their 
own. They want to get before they own the property--allowing 
the local government or the state government or the federal 
government to come in and actually do an assessment of that 
property, figure out how bad it is, put the yardstick up 
against it, is critical to these projects. And you can see the 
leveraging.
    Thank you.
    Mr. Olson. Mr. Martineau?
    Mr. Martineau. I would second that. I think that is exactly 
right. The site assessment dollars by somebody as the city or 
the community investing those dollars, so that they can attract 
maybe a myriad of prospective purchasers. Because if you don't 
know what the site has got, it is an old railroad site--and our 
Gulch was the same thing, an old CSX site. Why are you going to 
spend half-a-million dollars to do a site assessment to only 
find out it is way beyond the thing, when you can go somewhere 
else and find a greenfield site? So, that initial site 
investment, it gives the prospective buyers a sense of what the 
additional cost to use that facility is as opposed to something 
else.
    Mr. Olson. You have to have federal, don't you, it sounds 
like?
    Governor Glendening, sir?
    Mr. Glendening. Congressman, first of all, I agree entirely 
with the premise, and you are exactly on target. And I 
appreciate that.
    But let me also add, if I might, the Baltimore Orioles 
Stadium, which became the model for the modern baseball 
stadium, used the exact same approach. It was a combination. It 
was a brownfield. And right next to it now is the Ravens' 
stadium as well.
    And so, I think what we ought to do is, as creatively as 
the Baltimore Orioles and the Houston Astros play in the World 
Series for, we could call this ``the Brownfields Series,'' and 
put the publicity on this where it should be, as the Orioles, 
indeed, of course, go on to win.
    [Laughter.]
    Mr. Olson. We have one problem. I love that, sir, but a 
couple of years ago they moved us to the American League. So, 
it has to be an American League Champion Series, but I would 
love to have the Orioles----
    Mr. Glendening. You have to make more of an impact then. I 
had forgotten about----
    Mr. Olson. Well, we are planning to this year, the World 
Series Champs.
    Mr. Glendening. Right.
    Mr. Olson. Mayor Panto?
    Mr. Panto. In light of time, I would concur with all my 
colleagues as well.
    Mr. Olson. And last, sir, Mayor Bollwage.
    Mr. Bollwage. Thank you, Congressman.
    When we built the Jersey Gardens Mall on a 166-acre 
landfill, it was the same process. We used an assessment grant, 
and the developers asked me to go to the city council to build 
a road, which cost $10 million to get to the dump, in order to 
get the heavy equipment in for remediation. So, the public 
investment and that combination led to about $500 million of 
investment.
    Mr. Olson. As you guys know, more about the stadium, we 
built a basketball team. The big Rockets auditorium stands 
right across the street from that; a soccer stadium for our 
Dash and our Dynamos across the freeway from that, all new 
hotels, a little park out there. Downtown is thriving again. It 
was going----
    Mr. Shimkus. All right, the gentleman's time has expired. I 
will remind him that the American League still doesn't play 
real baseball because they have the DH.
    [Laughter.]
    Mr. Olson. It wasn't our choice.
    Mr. Shimkus. With that, I will recognize the gentleman from 
California, Mr. Ruiz. He was a baseball player. He would 
appreciate that.
    Mr. Ruiz. I do appreciate that, and the American League is 
definitely the league to follow and watch. That is where my 
favorite teams are.
    I want to focus on the important role that this program 
plays in improving and protecting the health of the surrounding 
communities. Often these contaminated sites are located in low-
income or underserved communities which shoulder a 
disproportionate burden of the health effects from the 
pollution. Clean up of these contaminated sites is a public 
health equity issue because it will provide these underserved 
communities who bear the greatest brunt of the disproportionate 
burden of disease with safer air to breathe and water to drink 
and a cleaner outdoor environment where the residents can work 
and play and raise a family, and know that their health will be 
protected.
    As an emergency physician, I have seen firsthand how these 
hazardous sites have affected the public's health, especially 
children who are too young to recognize the dangers of playing 
near contaminated sites.
    This question is for Mayor Panto. In your testimony you 
share your experiences with the abandoned R&H Simon Silk Mill 
in your community of Easton. What type of pollutants were 
present at this site?
    Mr. Panto. Lead, asbestos, primarily in the buildings that 
the kids used to go into. You are absolutely right, it is in 
our low/moderate area of the city. It is our highest-density 
population. So, the kids are looking for--there are no 
playgrounds around and there is not a lot of greenspace--so 
they find attractive older buildings like this to play in. And 
so, I would say the biggest obstacles were the lead and 
asbestos.
    Mr. Ruiz. And we know that there are well-documented 
negative health effects, including lung cancer, mesothelioma 
from breathing in asbestos, and problems with development of 
the brain and nervous system with lead exposure, especially in 
children. So, how did the Brownfields cleanup grant you 
received help you address these pollution problems?
    Mr. Panto. We removed and all the lead paint is now gone. 
All the asbestos is gone. Matter of fact, I should point out my 
mother worked in that mill when I was a child. So, that 
asbestos was getting into her lungs as well. But those are gone 
now. So, the kids who were frequenting them, had we done that a 
long time ago, they wouldn't be exposed to that, but they were 
definitely exposed to the asbestos and the lead.
    Mr. Ruiz. And so, tell me more about the community around 
these sites. Who remains most at risk from the pollution 
remaining at the abandoned sites? And why is there now a new 
threat there?
    Mr. Panto. The people or individuals who were most exposed 
were the kids. It wasn't the type of pollution where adults 
were going down and playing on the soils. We have one right 
down the site which was an old iron and metal scrap yard, and 
that is another site. It is just not as large. And the city is 
looking at possibly putting a park there.
    Mr. Ruiz. Are these affluent communities who can afford the 
care?
    Mr. Panto. No, no, no, no. No, these are poverty level, 80-
percent median income----
    Mr. Ruiz. Tell me about the healthcare services around 
there. Are there big hospitals? Is there concierge medicine?
    Mr. Panto. Concierge medicine? No, no. We are very 
fortunate; we just got our first primary care group that is 
opening up in that neighborhood, the first.
    Mr. Ruiz. Your very first one after all these years?
    Mr. Panto. Yes.
    Mr. Ruiz. So, disproportionately, the rural, hard-working, 
poor families that struggle to make ends meet are the ones that 
have to deal with these types of abandoned contaminated sites, 
correct?
    Mr. Panto. Congressman, I am glad you brought that up. We 
always try to look toward the positive of economic development, 
but you are absolutely right, it negates the health hazards. 
And, yes, there definitely were health hazards exposed to all 
the children who used to play in those buildings, including the 
homeless.
    Mr. Ruiz. Well, clearly, this is an issue of fairness. 
Clearly, this is an issue of the fair distribution of resources 
to meet the needs of those that oftentimes have the weakest 
political muscle to have a voice for themselves. And so, this 
brownfields reauthorization is an issue of environmental 
justice as well.
    Having said that, we also know that tribes constitute a 
large and increase in the application process for these grants. 
And we know that we had the discussion of whether the amount of 
grants, where if we were to increase the amount of grants, we 
would perhaps have to limit the amount of awardees. But, if we 
keep the awardees the same, the grant dollars will go down. 
This is one argument why we need to increase the pool or the 
pie of these grants, so that the grant money can be actually 
effective and we can get some significant changes in these 
communities that are needed.
    Mr. Anderson, talk to me about the technical assistance 
that these grants provide for tribes and other rural 
communities.
    Mr. Anderson. The technical assistance, there are a number 
of different ways to provide and gain technical assistance out 
there. The states, through their 128(a), as I mentioned, 
provide brownfields assistance. We go out. We brainstorm. We 
help with public meetings. Some states have grant-writing 
programs that they actually help write the grants, review them.
    There is also the TAB contractors through EPA, Technical 
Assistance to Brownfields. I believe there are five around the 
nation that can lend at no charge assistance to some of these 
local communities. There is also a similar-type setup for the 
tribes out there.
    These are excellent programs and work quite well.
    Mr. Ruiz. Thank you very much. I appreciate this 
conversation.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    I was going to mention to my colleague, Mr. Olson, some of 
us talk baseball; others of us actually still play baseball.
    [Laughter.]
    Mr. Chairman, you are from Illinois, the great home state 
of the Chicago Cubs. I am from Ohio.
    Mr. Shimkus. Wait, wait. Don't go that far.
    Mr. Johnson. I'm from Ohio, the home of the Cleveland 
Indians. But, just like his beloved Astros, Mr. Olson left the 
tournament early. So, I will have to mention this to him later.
    [Laughter.]
    Mr. Martineau, your testimony states that the discussion 
draft removes statutory barriers to brownfields revitalization. 
Would you please tell us what you mean by that?
    Mr. Martineau. I think a couple of things. The removal of 
the barrier to allow nonprofits and non-governmental entities 
there; the opportunity to increase the cap; the opportunity to 
increase those who could get liability protection, particularly 
governmental entities. Sometimes governmental entities, like in 
economic development, may be looking for sites that they can 
then market if they take ownership and do the assessment and 
prepare it for market, essentially. I think all of those things 
can be helpful; the administrative cost thing.
    Several folks mentioned those rural communities, 
particularly where we are trying to bring jobs back into the 
poor rural--we talk a lot about the urban, which are very 
important, but some of these rural jobs. In our state there 
were a lot apparel and denim facilities and stuff. Those 
industries are gone.
    So, having the Technical Assistance Grants or the ability 
to have the administrative cost to those small communities 
where $25,000 or $50,000 in a small city's budget may be the 
difference between getting that site marketable or not.
    Mr. Johnson. OK. Well, I represent one of those rural areas 
like you are talking about.
    In addition, your testimony states that legislation that 
reduces risk in remediation efforts would create opportunities 
for investors to reuse existing infrastructure at properties 
that would otherwise be wasted. Would you elaborate on that as 
well?
    Mr. Martineau. Yes. I think the provisions in some of it 
have been discussed here earlier today. The impediment to 
these, at the bottom it is the financing. It is the banks or 
the lenders that are going to want that certainty that they are 
not going to end up with a contaminated site or the prospective 
buyer that wants to do that redevelopment; that they want that 
liability protection from whatever preexisting conditions are 
there or the prior owners.
    The ability in Kayak example I used was perfect. They 
wanted to renovate that existing building instead of build a 
greenfield site. The square footage was already there. The 
infrastructure, water, and sewer was already there. But they 
didn't want to become the owner/operator of a contaminated 
site.
    So, allowing that existing facility to be renovated and 
ensuring through the grant that liability protection for that 
thing, when they went in and continued to operate; if you 
demolish the building and start cleaning, it is a little easier 
to clear it out and you get the soil samples. But this is the 
ability, rather than build a greenfield building, they were 
able to use an existing building that had been sitting vacant.
    Mr. Johnson. OK. Finally, staying with you, Mr. Martineau, 
your written testimony notes that states are seeking ways in 
which organizations can safely invest in remediation efforts 
without being restricted by liability concerns. Do you have any 
suggestions on how to deal with the liability concerns that you 
are referring to?
    Mr. Martineau. We can offer the committee some specific 
language through ECOS, and we will look at some specific 
language. But I think the kind of general concepts in the 
discussion draft about enhancing the liability protection, 
particularly for governmental entities who may want to take 
title, as we have talked about, the city really ends up being 
the owner of the property because it has been abandoned. And 
then, if they can ensure their protection, they can market that 
and pass that on.
    Mr. Johnson. OK. Mr. Chairman, I yield back a whole 40 
seconds.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the other gentleman from Houston, 
Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    And I would never say that you were a Cubs fan. I know you 
are the St. Louis Cardinals because, when we were in the 
National League, we battled you many times. And I appreciate 
that relationship.
    Mr. Olson. Will the gentleman yield briefly?
    Mr. Green. Briefly.
    Mr. Olson. Remember they hacked internal baseball accounts 
to save those Cardinals.
    Mr. Shimkus. Reserving the right to object----
    Mr. Green. Yes, reclaiming my time, the Cardinals actually 
paid for that, I think, the owners.
    I want to thank the chairman and the ranking member for 
having the hearing today because brownfields is so important in 
my area, in Houston, a very urban area. At one time these were 
just abandoned, bankrupt businesses that we wished we could 
keep the liability there, but when they are not there, you 
can't do it. But we do have a few cases where companies are 
bought and they just forget about that that is in their 
inventory. And we have a responsible party, whether it be a 
Superfund site or even brownfields.
    But what I have seen has happened--and I appreciate the 
effort to try to have nonprofits because in my area, a very 
urban area, just east of that baseball park, by the way, we 
have a number of nonprofits who could benefit from that in 
there. But we have been fortunate with grants and brownfields 
in both Houston and Harris County.
    In our area and around the country, some small, 
disadvantaged communities do not have the capacity to 
undertakes revitalization projects. That area that you saw in 
that baseball park was actually the city of Houston, which is 
big enough to deal with it. But I have some smaller cities 
further out in our industrial area that may not be able to deal 
with that.
    I hope that our reauthorization will provide those 
authorities and resources necessary to benefit communities. But 
I am concerned with President Trump's recently released 2018 
budget which calls for a 30-percent cut in the EPA and reported 
40-percent cut in Brownfields Redevelopment Grants. Brownfields 
is such a critical part for communities in Texas and throughout 
the United States. I hope this hearing and its continued 
attention to brownfields will show it is bipartisan support in 
Congress by the American people.
    Mr. Anderson, in your testimony you talk about your 
organizations helping smaller cities, towns, and rural areas. 
Could you describe some of that assistance your organization 
provides to these types of communities? Like I said, I have 
incorporated cities, but they are very small and may not have 
the local tax base or the local resources.
    Mr. Anderson. Yes, sir. Thank you.
    A great example I think is Lynchburg, Virginia, a small 
city. And there was an abandoned factory at the site. The city 
took it over. Adjacent to that was abandoned greenhouse 
complex. A nonprofit took that over.
    We were able to get grant money in to assess that property 
to give the first read on it that helped the city get through a 
voluntary cleanup program and to assess the greenhouse that 
helped the greenhouse. The nonprofit that employs some disabled 
adults and allows children to come out to an urban farm, to 
allow them to get that data and move forward with a cleanup 
program through our voluntary cleanup program, that is one of 
my finest examples out there. There are many others that I have 
around the state.
    Mr. Green. Thank you.
    Mayor Panto, as mayor of a small city, do you agree that 
some additional forms of assistance from EPA would be 
beneficial? I would like to turn to administrative costs. 
Currently, Brownfields Grant funds cannot be used for 
administrative costs. Allowing recipients to use a portion of 
EPA funds to offset some of the administrative burden could 
help these communities, particularly in these smaller and, 
then, sometimes financially-disadvantaged communities. Again, I 
am talking about a city, a very urban area of 10-12 thousand 
people.
    Mr. Panto. Congressman, I agree with you 100 percent. I 
think Mr. Anderson pointed out that our small city of 29,000 
doesn't have a grant writer, doesn't have a specific 
environmental department, let alone an environmental person. 
So, those types of administrative grants, 5 percent is fine, 
but we would like to see it be 10 percent because, on a 
$300,000 grant, let's say the average is--you can go up to 
$500,000, but let's say $300,000. That is a $30,000 opportunity 
for us to have oversight of professionals doing what needs to 
be done, and we don't have one on staff.
    Mr. Green. Thank you, Mr. Chairman. I have a number of 
questions, but I can't get into them now because I don't have 
the time. But I would be glad to submit them. I appreciate it.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Michigan, Mr. 
Walberg for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
committee, and to the witnesses for being here.
    Mr. Anderson, based on your extensive experience with 
brownfields, can you give us your thoughts on whether it would 
be a good idea to create an exemption or defense to liability 
for parties interested in redeveloping brownfields?
    Mr. Anderson. I think that is a two-part question, sir. The 
exemption might conflict with CERCLA laws. The defense is out 
there right now. The phase 1 environmental assessments, the due 
diligence can be and should be completed before you buy 
properties. It is the ``termite inspection'' of commercial real 
estate.
    And to do that, that will give you the protections under 
the law. Do the environmental assessments to go along with it, 
to find out how bad the termites are. Put a dollar figure on 
that site before you actually purchase that property.
    We have had very few problems with people moving forward 
with that process in Virginia. On a national level, I am not 
real sure, but I think it is an excellent model and it does 
provide the liability protections out there.
    Mr. Walberg. In this ``termite test'' that you say, would a 
party who caused or contributed to the contamination be 
eligible?
    Mr. Anderson. Since it is set up for purchasers of that 
property, no. However, we do have the voluntary cleanup 
program, as most of the states do. That would allow a PRP, a 
potential responsible party, to actually enroll that site into 
the cleanup program, complete a cleanup that is protective of 
human health and the environment. With that, under Virginia, 
you get enforcement immunity. We have a Memorandum of Agreement 
with EPA. We just re-upped it in March of 2017. That means 
that, once we complete it, the EPA has no further interest in 
that property. The lawyers really like that.
    Mr. Walberg. And you have found this proactive effort to be 
very productive in cleaning up?
    Mr. Anderson. I think so. Yes, sir, it has been very 
successful in Virginia, I believe. Well, there are two 
different types of sites in Virginia. You have got the type of 
sites that happen in the Beltway, up this way where properties 
have a lot of value and the properties are worth a lot once 
they are cleaned up.
    But, once you get out into the rural areas, the properties 
are upside-down, and you really need to work with the local 
government to figure out how to redevelop that property in a 
manner that is consistent with what they need and with what 
they have in that community itself. So, those can be a real 
challenge, but those liability protections are there for the 
local government, and we have talked about expansion of that 
here today.
    Thank you.
    Mr. Walberg. Your written testimony, Mr. Anderson, notes 
that the Section 128(a) funding for states, territories, and 
tribes has remained at just under $50 million for more than 15 
years. Can you explain to us why that is a problem, other than 
more money is always good money, it seems like?
    Mr. Anderson. Yes, sir, I believe I can. As I mentioned, in 
2003 there were 80 applicants for that pool of money. Today 
there are 166 applicants in 2016. So, basically, you have got 
double the amount of applicants for that money and you have got 
the same pot of money. The pie can only be sliced thinner. It 
is the only way to equal that out. The awards these days are 
half of what they were, less than half of what they were when 
the program started in 2003.
    Mr. Walberg. Does ASTSWMO--you say it better than I do----
    Mr. Anderson. ASTSWMO.
    Mr. Walberg. ASTSWMO.
    Mr. Anderson. It took me a while.
    Mr. Walberg. Do they have an opinion as to the appropriate 
level of funding?
    Mr. Anderson. If we were to look at that $50 million in 
today's dollars, I am not an economist, but I have been told 
that that $50 million is worth about $66 million. So, that 
alone could make a significant difference. If you just do the 
math and look at what we were getting on average in 2003 and 
you look at 2016, it would be significantly different, an 
increase.
    Mr. Walberg. Any of the rest of the panel care to add to 
that from your own experience?
    Mr. Glendening. If I could add a very quick comment here, 
part of what is going on, I think, is that the sites that are 
left are not only more difficult, they are also significantly 
about health in the neighborhood, in the poor areas, and things 
of this type. And so, the program has been successful. You can 
see that by the number of applications as well as the results 
afterwards. But what we are looking at now is, just as the poor 
and the smaller and the areas that are most impacted by the 
health considerations realize what is going on, the money, just 
in terms of the sheer numbers, is becoming very, very 
difficult.
    I always emphasize to people to just look around the 
neighborhood. You don't see the $600,000 home right next to the 
abandoned steel mill. You do see the rental properties where 
people really don't even want to live and their children are 
ill next to the steel mill. That is part of what we have got to 
keep in our mind when we think about the total amount of money.
    Mr. Walberg. Thank you. I yield back.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. Mr. Chairman, I want to congratulate you. 
This is very bipartisan. In fact, it is a little too 
bipartisan. We need to find some areas to disagree on.
    Mr. Shimkus. Yes, don't spread that around too much. It is 
not going to be helpful.
    [Laughter.]
    Mr. McNerney. Thank you.
    But there are some common things here. You all seem to want 
to have the individual grant size increased, maybe as much as a 
million dollars. You like the administration costs covered, 
maybe up to 10 percent. Those seem reasonable.
    But, with regard to the mayors, I am a little confused 
about why you think the brownfields in-fill is a better 
opportunity than a greenfield for small towns. I mean, I like 
to hear that, but I am not sure what the reasons are.
    Mr. Panto. Well, in Pennsylvania we are very parochial. So, 
I have 5 square miles. But, if you came to my city, you would 
think were seven municipalities. There are three boroughs and 
three townships that border us that we provide water and sewer 
for, but we don't have the abilities to increase our population 
the way they do. Therefore, we are stagnant.
    The same way with the brownfields. The brownfields are 
located in the cities. They are not located in the townships 
that are relatively new. That is all greenfield development.
    It is a matter of fairness to me. We have the tax-exempt 
properties, the schools, the churches, the county seats. They 
don't have that. They have a much higher income tax base than 
we do. We have the poor, the poverty, the senior citizens. We 
need that.
    These brownfields sites in cities of our size are really 
important economically. They are important, as Congressman Ruiz 
said, for health and safety. Absolutely. But, just as 
importantly, they are the economic engines of our city. They 
could provide jobs for our residents. Increasing their earning 
capacity is really important to us. Because if we increase 
their earning capacity, they get sustainable jobs that help 
them with their family. Their kids don't go to school hungry. 
They have the laptop at home or the computer to do their 
homework. We don't have the kind of wealth that they have in 
the suburbs. So, I would say that this is a fairness issue, 
economically and from a health and safety point.
    Mr. Bollwage. Congressman, from my point of view, we are 
the county seat in New Jersey, in Union County. Forty-seven 
percent of our land is tax-exempt because of Newark Airport, 
the seaport, churches, the county buildings. And the only way 
we can grow our tax base is by looking at these underutilized 
properties and convert them to a productive use, in supporting 
what my colleague from Pennsylvania just said.
    Mr. McNerney. And Mr. Anderson remarked that it is a better 
use of infrastructure. I assume you mean electrical 
infrastructure, water infrastructure, broadband, all those 
things?
    Mr. Anderson. Yes, sir, I do. As you are aware, once you 
extend services out, you have to maintain those. And the core 
of cities will continue to deteriorate unless efforts are made 
to revitalize those cores themselves. Those were the stimulus 
for the development in that area itself to begin with.
    Mr. McNerney. Well, the city of Stockton, California, in my 
district, was one of the recipients of a pilot grant in 1996, 
and it used it to revitalize areas near the Stockton Deepwater 
Channel. And it has been very successful.
    I am turning my interest toward the repowering portion of 
this legislation. Mr. Glendening, I would like to ask, what do 
you think the benefits to the communities of the repowering 
initiative would be?
    Mr. Glendening. I am sorry, can you repeat the last part of 
the question?
    Mr. McNerney. Well, what are the benefits to the community 
that the repowering portion of this legislation would be as 
opposed to not including that?
    Mr. Glendening. Oh, most definitely. Part of what we as far 
as Smart Growth America, but in communities all across the 
country, it is to bring investment into existing communities. 
We do that in part because we are interested in supporting 
efforts to protect the greenfields, the farming, the 
agriculture, the timber, the open spaces. And the best way to 
do that is to have a thriving existing community.
    Also, your point is well-taken in terms of the whole equity 
issue as well. If everything continues to grow outward and the 
housing wealth and everything moves outward, then you have 
people who are left behind. I think this is one of the big 
challenges facing the country. And so, this is about 
revitalization in areas that really need the jobs, the tax 
revenue, and the investment.
    Mr. McNerney. Thank you.
    Mr. Martineau, do you think that the states would be able 
to pick up the slack if the EPA budget cuts of 30 percent 
filter down to the Brownfields Program?
    Mr. Martineau. Sir, I think the challenge, no, would be 
those states are already strapped. They are often part players 
in that. But those grants provide the seed money for those 
investments. And so, that is an important partnership there, to 
have those federal dollars available to states and local 
communities for those grants.
    Mr. McNerney. So, the kind of fundings we have seen 
proposed from the administration would be very detrimental to 
our cities?
    Mr. Martineau. Yes, I think that, obviously, the number--we 
are already short, as the ranking member said, the number of 
sites that are still waiting on the list. And the money that 
has currently been budgeted, if it goes backwards, there are 
just going to be fewer sites, particularly if we increase the 
cap of what an individual grant could be. Yes, you would just 
do a lot fewer sites, if we are trying to reinvest in that 
infrastructure, in existing communities that have blighted 
facilities and return them to productive use.
    And back to the chairman's comment about how do you measure 
it, you can do the economic analysis. It is not a direct 
dollar, but if you put 200 jobs back in a rural community and 
take people off of unemployment and other assistance programs, 
and they are paying state and federal taxes, and the property 
values in those communities go up, that benefits both the 
federal government and the state government and local 
communities.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman, and thank all of you 
for being here. This is very interesting.
    I was a mayor in another life, and I can tell you these are 
the type of things that I think the government does well and 
that we utilized. In fact, in the state of Georgia we have been 
very successful in a number of projects, particularly in the 
Atlanta area.
    If you look at Atlantic Station, that to me has to be one 
of the best examples anywhere in the nation. I mean, that is 
multi-use and it is such a vibrant place now, kind of a 
centerpiece, if you will, of the whole area.
    And not only Atlantic Station, but Ponce City Market. That 
is another example of a great project. My son actually works in 
that building. So, I see it firsthand quite often. Again, that 
is the kind of thing that builds up my confidence or makes me 
feel good that we are doing some things good, and we do from 
time to time.
    I want to ask you because I want to understand, what are 
the challenges, if you will, that you face when you are working 
with third-party developers and when you are working with 
third-party developers on a prospective purchase or something? 
What is the biggest challenge that you face with that, because 
this has to be a partnership?
    Mr. Anderson?
    Mr. Anderson. Probably time. Developers move at a different 
rate of speed as to what the government does. And that is just 
the way life works.
    To respond to it, we have to have the staff in place 
knowledgeable and staff that are able to respond and do, at 
least in my program, handle the cleanup that is associated with 
those sites or to provide that advice to the local government 
and the developer itself.
    Mr. Carter. Yes, we know that the wheels of the federal 
government move slow.
    Mr. Anderson. They do, but, surprisingly, in this program 
if you compare it to other programs, because most of the 
developers or the cities that are enrolling properties, they 
have an end goal in mind to finish this development, they have 
money on the line, they are ready to move.
    Mr. Carter. Right. Anybody else? Yes, sir, Mayor Bollwage?
    Mr. Bollwage. Congressman, thank you.
    The biggest problem is, first of all, the developer needs 
to make money. And therefore, taking that aside, how does he do 
that or how did they do that. And when they are looking at 
their revenue item, they want to know if there is grounds to 
cover the assessment cost, if there is a grounds to cover the 
cleanup costs, if there is a grounds for tax abatement from the 
local municipality and/or whatever state grants could be 
available. So, you start off from wherever the developer's 
number is and how do you get to that developer's number, and 
then, they are looking for all types of other areas. And one of 
the ways we can help is through assessment and cleanup, with 
the help of the federal government.
    Mr. Carter. You brought that up, and I appreciate it very 
much because that segues exactly into my next question. And 
that is, you mentioned yourself about some of the projects are 
easier than others, and we understand that.
    The projects in urban areas are very different from 
projects in rural areas. And I have some urban area, but mostly 
rural area in my district. I have got one example of a high-
risk, high-reward project, if you will. It is a paper mill that 
is on pristine property. It is just located on deepwater, but 
it is doing to take a lot of cleanup, and we are struggling. It 
is in St. Mary's, Georgia. And we are really struggling with 
getting someone interested in taking on that high risk.
    Any experiences with that? Any suggestions?
    Mr. Panto. What we did, Congressman, is on this mill I 
worked for a developer before I became mayor. In the 16 years I 
was out of office, I worked for two different developers.
    My economic development director and I knew that we would 
never get anyone interested in this building in the private 
sector in this 18 acres, 16 buildings of blight and 
environmental contamination. So, what we did is we put together 
a package to go out and get all the grants that we could, 
including Brownfields grants, to clean the property up. Then, 
we offered it to the third party by doing an RFP.
    Now we are giving them a piece of property that their 
liability is gone. The lead on the abatement; the soil 
remediation is done. Everything is done right on down to 
structural analysis of the buildings.
    I believe that is government's role. How do we get it to a 
point where a private sector will--they had baseball. Well, I 
will use a football analogy. It is that we handed it off. We 
handed it off to the next person, the private sector, to invest 
$100 million. Whereas we spent probably about $7 or $8 million 
in grant money to clean the entire site, put in the 
infrastructure because there was no infrastructure left. And in 
many of these brownfields the infrastructure is a complete 
reinvestment.
    Mr. Carter. Right.
    Mr. Panto. That alone was a couple of million dollars.
    Mr. Glendening. Congressman, can I say real quickly in the 
few seconds that are left that I worked with the developer Jim 
Jacoby on a number of aspects down with the Atlantic Station. I 
remember when it was just a huge slag field of abandoned 
material.
    And one of the things that was so clear to me--and this is 
a very innovative gentleman, as you know--he is trying to solve 
one problem and, then, he immediately moves to the next section 
and the next section, which is why I go back to we really need 
to be flexible on this, so that one part, in fact, is moving 
and you are just doing the assessment over on this part. He is 
a tremendous example of what can be done.
    Mr. Carter. Absolutely. Yes.
    Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentlelady from Michigan, Ms. 
Dingell, for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman, and thank you, 
Ranking Member Tonko, for holding this important hearing today 
about reauthorizing EPA's Brownfields.
    It is a bipartisan issue and it is great to see us all work 
together because we need to be doing it more.
    By the way, I am a Detroit Tigers fan and I always be. I 
mean, I just couldn't let that go. We haven't played. We got 
rained out yesterday. So, we will win today.
    But EPA's Brownfields Program has had a long history of 
empowering states, local communities, and other stakeholders to 
work together to prevent the contaminated sites from 
endangering public health and the environment. The program has 
got merits.
    As I am sitting here listening to this discussion, I am 
struck. I really agree with my colleague who just spoke, Mr. 
Carter, about some of the impediments that we all face.
    We have a success story in my district which is one of the 
best brownfields sites in the country, which we have the 
Downriver Community Conference that received a grant of $6.4 
million for the revolving loan fund. It has actually yielded 
$103 million return on investment, adding over 800 jobs and 
significantly increasing the tax base of local downriver 
communities.
    Then, we got another grant, and we are very proud of this, 
Willow Run, which was once the site of the Arsenal of Democracy 
and the original Rosie the Riveter for World War II. It is now 
the home of the American Center for Mobility, a national DOT 
proving ground for testing and validation of connected and 
automated vehicles. And there are a ton of stories like this.
    And I am going to ask questions, unscripted again. I always 
go off-script and make my staff get upset.
    We have got McLouth Steel, which is where the problems are, 
and Superfund is way too slow. I want to talk about that in a 
minute.
    But let me ask you this: the overall EPA budget is critical 
to the success of brownfields programs across the country. 
Mayor Panto, on behalf of the National League of Cities, how 
would budget cuts to EPA impact any of your current or future 
brownfields projects and what are you hearing from other 
mayors?
    Mr. Panto. Well, they won't get done. So, the health and 
safety will continue to rise. The economic losses will continue 
to go to the suburban areas of our city, not to the city 
itself. So, it would be devastating not just to Easton, but all 
of our cities and towns across America.
    I will tell you that we have been very resilient not just 
in climate and environment, but also in finances. Mayors and 
council members at a local level have had to do exactly what 
Congress has had to do. Just all we remind you is, like a 
mayor, I propose my budget to city council; city council 
disposes the budget, and so do you.
    So, I am asking you to prioritize. This is an important 
ingredient for creating jobs. This will move the cities 
forward, which moves the country forward. And it would be 
devastating without it.
    Mrs. Dingell. I agree.
    This question is for the entire panel. In the event EPA is 
no longer able to provide brownfields projects funding to the 
cities, could current multi-year cleanup projects experience 
significant delays or complete cancellations? And if so, what 
is the impact on public health and the environment? Any of you? 
Because I know you all have got a not-good answer or an answer 
with not good consequences.
    Mr. Glendening. Well, I would just say part of the 
challenge is all of the different discussions here have 
focused, appropriately and for obvious reasons, on the dollar 
return on investment or on the number of jobs created or on 
revenues going in. All of those are very reasonable 
justifications.
     However, when you start getting into the other questions 
like the health of the community, like the whole equity issue 
situation, like having affordable properties for development of 
affordable housing, like having attraction for private sector 
investment into older communities that desperately need 
revitalization, that is not on the balance sheet when we look 
at it right now. And it must be really part of the 
consideration, which is why I agree so much with the mayor, 
hoping the committee clearly understands these issues and makes 
this as part of the prioritization of doing that. You do 
understand, of course, that I am equally concerned about some 
other areas, but I am here on behalf of brownfields.
    Mrs. Dingell. Thank you.
    Anybody else want to comment in the 10 seconds left?
    Mr. Panto. Congresswoman, I would just say one thing. 
Return on investment is very important, and that is what it is 
all about. It is about trying to do those things that 
government can do from a businesslike manner. We can't do 
everything like a business.
    But, for example, right now, our city is looking to invest 
$30 million into a $130 million aquarium science center. The 
only way we can do that is looking at what is our return. And 
if our return is greater than the debt service, we are there. 
If our return isn't greater than the debt service, it is we are 
not there. The return on investment on this program, you can't 
even question it. It has been phenomenal.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentlelady's time has expired.
    The Chair now recognizes the gentlelady from Tennessee, Ms. 
Blackburn, for 5 minutes.
    Mrs. Blackburn. Thank you so much.
    And I want to stay right with that line of questioning and 
thought. Mr. Martineau, I think you should know I am coming 
straight to you, buddy.
    [Laughter.]
    Yes, I know you do, and I know you have got such a great 
story to tell. As I said in my opening statement, we are really 
pleased with the program in Tennessee and what you have been 
able to accomplish.
    And so, as we go through this bill and look at the 
discussion draft and look at how we make certain that we 
continue on the road where there is that return on investment--
and you were saying phenomenal; you almost said fanatical. And 
I tell you what, I think that that may not have been such a 
misnomer because people would never have expected some of the 
revitalization that has come from the work that you have done.
    But I want you to talk, if you will, sir, about two 
projects, and you referenced each of them. One is The Gulch 
project. Talk about the public/private partnership, the 
incentivizing that the state did.
    And then, I don't know if you have for the record what the 
estimated property value now of The Gulch is as compared to 
what it was 10 years ago, 15 years ago.
    And then, the Jackson Kayak story I think is also so 
important to not lose track of because this was a small 
business and they sought to expand. And you all helped them 
find a place that was basically deemed not worthy of 
development and replaced them, and then, bringing those jobs 
into that community where you now have a large percentage or a 
significant percentage of the community's workforce.
    So, I am going to turn it over to you, and you have got 
about 2 minutes.
    Mr. Martineau. I will highlight those couple and even one 
in your district as well I think that is even a good story. The 
Kayak one, briefly, I will start with that. Again, it was an 
existing facility or existing company manufacturing kind of 
high-end kayaks and coolers. They were looking to expand. There 
was an abandoned old lighting facility that had some 
contamination from the historical operations there.
    We worked together with them to give the community an 
assessment. The local development district wanted to keep them, 
Kayak, from moving somewhere else to expand their facility. In 
the end, that partnership and giving the Kayak company the 
immunity protection from the existing contamination without 
having to tear down the building allowed that existing facility 
that already had the infrastructure there in place for water 
and sewer and things.
    And again, it is a small town of 5,000 people and 250 new, 
kind of high-end jobs, because they are kind of specialty 
manufacturing jobs. It is not a warehouse or anything. So, that 
is a great success story. So, the return on that investment in 
that community, I am pretty sure that is probably the largest 
employer in that small town, and it stayed right there.
    The National Gulch, it started as a small piece on the 
south end of The Gulch. It has now expanded to several other 
brownfields properties investment. HCA, the large hospital 
corporation, moved a part of their corporate headquarters 
there. There is a new capital redevelopment. And I don't have 
the total dollar values of the real estate there, but----
    Mrs. Blackburn. Could you get that and submit that for the 
record?
    Mr. Martineau. Yes, we will do that.
    Mrs. Blackburn. Thank you.
    Mr. Martineau. Just to give you an example of some of the 
high-rise condos and stuff that are there, we went from an 
abandoned property that nobody wanted to be there after dark to 
600-square-foot condos that are selling for half-a-million 
dollars in a high-rise building and a brand-new premium hotel 
that rooms are $400 a night there. So, the tax base has been 
generated in that community and we will get that.
    Another on the small end and really important to the rural 
communities people have mentioned is in Saltillo, which I 
believe is in Hardin County, on the Tennessee River. The Main 
Street was kind of abandoned. It had had some old apparel 
factories.
    Through that assessment grant, we worked with them to 
provide some technical assistance. They actually attended one 
of our workshops and said, ``Hey, we should try to get one of 
these assessment grants.'' They got a small assessment grant. 
They took an old, abandoned school and some old abandoned 
buildings. The school became a senior citizens center to serve 
this community.
    They actually leveraged some FEMA funds because it is right 
on the banks of the Tennessee River and subject to flooding in 
the area, and they used some FEMA funds to leverage to turn 
into a storm center for evacuation, regional evacuation.
    And they are working with some of those other abandoned 
buildings to try to bring businesses back down. They also built 
some marina and docks on the Tennessee River, so the people had 
access for their boats, which brings people into the town, 
then, to spend money as they come in and out.
    So, three great success stories of that program.
    Mrs. Blackburn. And we appreciate hearing those and we 
appreciate the stellar job that you do.
    Mr. Martineau. Thank you.
    Mrs. Blackburn. Thank you. I yield back, Mr. Chairman.
    Mr. Shimkus. The gentlelady yields back her time.
    The Chair now recognizes the gentlelady from California, 
Ms. Matsui, for 5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman.
    Like a number of other members on the committee, I have 
seen the Brownfields Program's significant impact in my 
district in California. The cities of Sacrament and West 
Sacramento in my district have received a combined $4.4 million 
in Brownfields Program assessment, cleanup, and revolving loan 
fund grants. In Sacramento alone, that has leveraged over $1 
billion in redevelopment funding.
    One of my favorite projects in Sacramento, spurred by the 
EPA Brownfields grant, is a warehouse artist loft. The Artists 
Lofts are a converted former industrial building that is now a 
mixed-use, mixed-income, transit-oriented development for 
artist and their families. The lofts are at the center of 
Sacramento's historic R Street Corridor, which is now one of 
the most popular areas in the city.
    The redevelopment of R Street could not have happened 
without federal partnership and funding. But, for the 
Brownfields Program to utility to its full potential, including 
projects in the pipeline in my district, it must receive 
adequate funding. I am encouraged to see the numbers proposed 
by Ranking Members Pallone and Tonko in the reauthorization 
bill. And I urge my Republican colleagues to replace the 
bracketed reauthorizations in the draft with identical funding 
levels.
    In Mr. Anderson's written testimony, he highlights the fact 
that the average Brownfields grant award today is less than 
half of what it was in 2003. Mayors Bollwage and Panto, have 
you seen this same pattern?
    Mr. Bollwage. Yes.
    Ms. Matsui. OK. Now both the Pallone and Tonko 
reauthorization bill and the Republican draft reauthorization 
raise the funding cap for individual cleanup grants. In my 
district, I have heard that the current grant sizes make the 
program ineffective for larger projects that require more 
funding. Is this consistent with any of the witnesses' 
experience?
    Mr. Bollwage. Yes.
    Mr. Martineau. It is? OK, great.
    Now another way of questioning here, many of the 
brownfields sites in West Sacramento are contaminated with 
petroleum. So, I am particularly interested in provisions in 
this discussion draft related to petroleum cleanups.
    Under current law, there is a cap on the funds that can be 
used for petroleum cleanups and that cap has no relationship to 
the number of sites with petroleum contamination. The 
discussion draft would eliminate that arbitrary cap.
    This question is for the mayors on the panel. Do you 
support eliminating that cap so that funds can go to petroleum 
cleanups where needed?
    Mr. Panto. Yes.
    Mr. Bollwage. Yes.
    Ms. Matsui. The discussion draft also removes the 
requirement in current law that states and the EPA find a 
petroleum site to be, ``relatively low-risk,'' in order to 
access brownfields funding. This is a difficult determination 
to make and might have the unintended consequence of leaving 
very risky sites unaddressed.
    This question is for Mr. Anderson. Do you support removing 
that requirement, so that state agencies do not have to perform 
a burdensome analysis? In general, do you support more 
flexibility to allow states to address petroleum-contaminated 
sites? Mr. Anderson?
    Mr. Anderson. The short answer is, yes, we do want more 
flexibility. Quite often, that runs into a statutory issue in 
the state itself if there is a requirement for petroleum 
cleanup.
    In Virginia we do have the Virginia Petroleum Storage Tank 
Fund, which is very beneficial and it is actually one of our 
unknown brownfields champions by helping to clean up so many of 
these sites.
    But we have also tried to work together with other 
regulatory-based programs and with our voluntary programs, so 
that we come up with a solution that is timely and you are 
dealing with one project manager.
    Thank you.
    Ms. Matsui. OK. Any other comments from the rest of the 
witnesses?
    [No response.]
    OK. I yield back. Thank you.
    Mr. Shimkus. The gentlelady yields back her time.
    The Chair now recognizes the very patient Mr. Cardenas for 
5 minutes.
    Mr. Cardenas. Thank you very much. I appreciate the 
opportunity to have this public discussion about this important 
issue that, quite frankly, most Americans don't think twice 
about because it is out of sight, out of mind. But, when you 
are a mayor, it is front and center. So, I want to thank 
specifically the mayors for being here today and sharing what 
it is like literally on the ground on trying to make policy and 
trying to literally clean up our communities.
    I would like somebody to take a crack at giving a 
simplistic definition or differential between what is a 
brownfields and a Superfund. I mean, what makes one what it is 
and the other one what it is?
    Mr. Martineau. They are both contaminated. The Superfund 
site would be listed on the formal National Priorities List for 
Superfund Funding and, then, the cost-share there. Brownfield 
sites are many sites that may not qualify or being assessed 
under the Superfund Program, but have some nature and extent of 
contamination.
    Mr. Cardenas. Now what might be the reason why a site would 
end up on a Superfund list versus just remaining a plain, old 
brownfield?
    Mr. Bollwage. Congressman, severity of the contamination.
    Mr. Cardenas. OK. And then, of the brownfields, by and 
large, and the Superfunds, it just so happened that those 
grounds were contaminated by natural millions of years of 
accumulation? Or are they pretty much manmade results?
    Mr. Bollwage. Manmade, Congressman.
    Mr. Cardenas. OK, manmade. And usually not like an 
individual man or a person, but usually a corporation that 
perhaps was having some kind of activity, maybe dealing with 
certain kinds of chemicals, and in many cases probably making 
some products that society benefitted from tremendously.
    However, are most of these Superfunds and/or brownfields, 
were they created before the EPA was created or most of them 
were created after? I mean, is there like a time where, oops, 
we finally realize we are messing up the ground and our 
groundwater, et cetera, and now, we have got to stop doing 
those kinds of things?
    Mr. Bollwage. I had the good fortune of having a Superfund 
site in my city.
    Mr. Cardenas. Or the bad fortune. Anyway, I get what you 
are saying. You are knowledgeable. Thank you.
    Mr. Bollwage. It is called Chemical Control Corporation, 
which is on the water and it stored chemicals. In 1980, it blew 
up and the barrels went into the air. And the result of that, 
after getting funding for a Superfund site, was capping it with 
cement and it has to be in that position for the next 99 years.
    Mr. Cardenas. All right. OK.
    Mr. Bollwage. There is no use, no tax revenue, nothing.
    Mr. Cardenas. OK. To my question, by and large, Superfund 
sites became Superfund conditioned sites or brownfields 
conditioned sites before or after the EPA was created?
    Mr. Panto. Well, I happened to work for the company that 
owned a Superfund site that was a dump. Now it is a sanitary 
landfill, and they have cleaned it up and it is off the 
Superfund site. They have done groundwater collection. They 
have done methane gas recovery. We are making it into 
electricity. They have done a great job of cleaning up the 
site.
    But it was definitely done way before EPA was even--the 
real contamination was when it was not owned by the current 
owner, but when it was a dump, when people just dumped things 
back there. That was before the EPA took place.
    Mr. Cardenas. So, there was a time where us, as human 
beings, we kind of like, to be honest, we were kind of ignorant 
to the long-term effects of certain practices. I remember I was 
born in 1963. I was probably about 5 years old and I am 
carrying this little bucket of oil, and my dad told me, ``Just 
go bury it in the backyard.'' I don't begrudge my father for 
doing that. This is in the 1960s. My dad didn't realize, oops, 
maybe we shouldn't bury it; maybe we should do something more 
appropriate with that.
    I am sorry, you were going to----
    Mr. Panto. I don't blame him and I don't blame corporations 
or anyone else.
    Mr. Cardenas. Exactly.
    Mr. Panto. But, still, I feel it is our responsibility and, 
wherever possible, to go back to that contaminating body, 
whether it was a corporation or an individual, and try to clean 
up the environment.
    Mr. Cardenas. Yes.
    Mr. Glendening. Mr. Congressman, your point, though, is 
very well-taken. I like the way you laid that out. Were you a 
prosecutor?
    Mr. Cardenas. No, I am an engineer.
    Mr. Glendening. Well, I like the way it was laid out.
    Mr. Cardenas. I take it as a compliment.
    Go ahead.
    Mr. Glendening. The point is absolutely essential, and that 
is, the number of new brownfields has declined dramatically 
because of the standards, the enforcement, and the public 
education coming from EPA overall. And the real solution is not 
to have more brownfields constantly created, which means that 
we have got to fund the cleanup and we have got to fund those 
things that have caused the dramatic decline in the number of 
brownfields. So, I like that presentation.
    Mr. Cardenas. Well, thank you.
    In my 11 seconds, I just want to say I am now a grandfather 
and I don't want my grandson to go through what the previous 
generation has gone through. So, right-sizing the EPA and 
making sure that the funds for brownfields cleanup, et cetera, 
that we right-size it. Because, with all due respect, if you 
allow me, Mr. Chairman, 10 more seconds, what we are talking 
about, as we delay and we don't get to these sooner, our 
groundwater and many precious things that we depend on continue 
to be contaminated and affected negatively.
    Thank you very much, Mr. Chairman, for your generosity. 
Thank you, and thanks for having this hearing.
    Mr. Shimkus. The gentleman yields back his time.
    Seeing no further members wishing to ask questions of the 
first and only panel, I would like to thank all our witnesses 
again for being here today.
    Before we conclude, I would like to ask unanimous consent 
to submit the following document. There is only one: this 
ASTSWMO position paper agreed to by the minority. Without 
objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. I would also like to end by asking Mr. 
Martineau and Mr. Anderson, both from ECOS and ASTSWMO, if you 
would be willing to work with us diligently on language and 
stuff over the next--obviously, there is a lot of bipartisan 
interest and excitement about moving, but we want to really 
start engaging you closely in language.
    Mr. Martineau. Yes, sir, absolutely, we would be happy to.
    Mr. Shimkus. And really, the same question for the mayors 
and Governor Glendening, with your organizations, the U.S. 
Conference of Mayors, the National League of Cities, and, also, 
your organization, Governor, if you would work with staff on 
both sides for us to finetune the language, so we can get 
moving on what you see as a very bipartisan, very interesting 
time.
    Mr. Bollwage. Most definitely.
    Mr. Shimkus. We want to thank you also for just being in 
the fields working away and helping communities. We are all 
from communities. We all know the challenges that governing 
has, and we appreciate you stepping up to the plate, and look 
forward to being helpful and not harmful in the process. With 
that, seeing no other questions or requests for time, I will 
adjourn the hearing and thank you very much.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   

                                 [all]
                                 
                                 
                                 
</pre></body></html>
